<html>
<title> - A THIRD WAY: ALTERNATIVES FOR IRAQ'S FUTURE (PART 1 OF 4)</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


                                     

                         [H.A.S.C. No. 110-71]
 
       A THIRD WAY: ALTERNATIVES FOR IRAQ'S FUTURE (PART 1 OF 4)

                               __________

                                HEARING

                               BEFORE THE

               OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                             JULY 12, 2007

                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     
  
                     U.S. GOVERNMENT PRINTING OFFICE
38-756 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


               OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

                     VIC SNYDER, Arkansas, Chairman
JOHN SPRATT, South Carolina          W. TODD AKIN, Missouri
LORETTA SANCHEZ, California          ROSCOE G. BARTLETT, Maryland
ELLEN O. TAUSCHER, California        WALTER B. JONES, North Carolina
ROBERT ANDREWS, New Jersey           JEFF MILLER, Florida
SUSAN A. DAVIS, California           PHIL GINGREY, Georgia
JIM COOPER, Tennessee                K. MICHAEL CONAWAY, Texas
HANK JOHNSON, Georgia                GEOFF DAVIS, Kentucky
JOE SESTAK, Pennsylvania
                Lorry Fenner, Professional Staff Member
                Thomas Hawley, Professional Staff Member
                Roger Zakheim, Professional Staff Member
                    Sasha Rogers, Research Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2007

                                                                   Page

Hearing:

Thursday, July 12, 2007, A Third Way: Alternatives for Iraq's 
  Future (Part 1 of 4)...........................................     1

Appendix:

Thursday, July 12, 2007..........................................    51
                              ----------                              

                        THURSDAY, JULY 12, 2007
       A THIRD WAY: ALTERNATIVES FOR IRAQ'S FUTURE (PART 1 OF 4)
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Akin, Hon. W. Todd, a Representative from Missouri, Ranking 
  Member, Oversight and Investigations Subcommittee..............     2
Snyder, Hon. Vic, a Representative from Arkansas, Chairman, 
  Oversight and Investigations Subcommittee......................     1

                               WITNESSES

Boot, Max, Senior Fellow in National Security Studies, The 
  Council on Foreign Relations...................................     6
Clark, Gen. Wesley K., (Ret.), Former NATO Supreme Allied 
  Commander, Europe, U.S. Army...................................     4
Khan, Dr. Muqtedar, Assistant Professor, Political Science and 
  International Relations, University of Delaware, Non-Resident 
  Senior Fellow, Saban Center for Middle East Policy, Brookings 
  Institution....................................................     9

                                APPENDIX

Prepared Statements:

    Akin, Hon. W. Todd...........................................    57
    Boot, Max....................................................    67
    Clark, Gen. Wesley K.........................................    61
    Snyder, Hon. Vic.............................................    55

Documents Submitted for the Record:
    [There were no Documents submitted.]

Questions and Answers Submitted for the Record:
    [There were no Questions submitted.]
       A THIRD WAY: ALTERNATIVES FOR IRAQ'S FUTURE (PART 1 OF 4)

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                 Oversight and Investigations Subcommittee,
                           Washington, DC, Thursday, July 12, 2007.
    The subcommittee met, pursuant to call, at 3:06 p.m., in 
room 2212, Rayburn House Office Building, Hon. Vic Snyder 
(chairman of the subcommittee) presiding.

  OPENING STATEMENT OF HON. VIC SNYDER, A REPRESENTATIVE FROM 
 ARKANSAS, CHAIRMAN, OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

    Dr. Snyder. The hearing will come to order. I think there 
is a pretty long line outside, so if any of you in the audience 
go to the restroom, you may lose your seat. Who knows? But we 
appreciate you all being here.
    I want to welcome everyone here today.
    This is the first hearing which I have presided over as the 
subcommittee chairman since Mr. Meehan left. Mr. Akin and I 
have worked on things together in the past and we are intent on 
doing that with this subcommittee and look forward to working 
with him and the rest of the committee members in this new 
role.
    I want to welcome everyone to this first in a series of 
four hearings we are going to have this month at this 
subcommittee level on alternative strategies for Iraq.
    I was listening to NPR yesterday morning, and they had an 
interview with troops that were deploying overseas and what 
service to America means. One woman was briefly interviewed, 
Staff Sergeant Nicole Walden. She said, ``I am Staff Sergeant 
Nicole Walden. I dropped my kids off one and a half weeks ago 
because my husband and I are both deploying, so my kids had to 
go stay with their grandparents.'' And the interviewer says, 
``Tell me again their ages? And she says, ``Three and one. I 
wake up in the morning and they are not there and I just--it is 
unreal.''
    And she goes on to say that she is not complaining because 
she gets so much support. But if you think of the tremendous 
sacrifice that this family, this mother and father are making 
to leave off those two young toddlers with grandparents, my own 
view is that we in the Congress owe those men and women 
everything we can do to have the right strategy of foreign 
policy and our national security, but particularly with regard 
to Iraq.
    Mr. Akin and I have both been frustrated and have shared 
our frustrations to each other about the tone of the debate for 
this first six months of the year in terms of the polarization 
that has occurred in the Congress. We wanted to have a series 
of hearings in which we invite smart people, experienced 
people, who can give us some other ideas. Maybe other ideas are 
going to be that there are not as many other ideas out there as 
we would like, but we want to hear from other smart people 
about what other options are.
    We hope to enhance the public debate and inform future full 
committee deliberations. We have invited retired senior 
military officers, defense policy experts, and academics who 
specialize on the Middle East. The full committee under Mr. 
Skelton's leadership is holding complementary hearings on a 
broader scope.
    Yesterday, I heard witnesses give their views on the global 
security assessment. Upcoming full committee hearings will 
address Middle East regional security issues, the interim Iraq 
report, and General Petraeus' September report on the surge.
    We have asked our witnesses both today and the ones coming 
up in the rest of the month to look forward, rather than 
backward. We are not intent on rehashing over mistakes that 
have been made or how we got to where we are. We have asked our 
witnesses to look ahead and explore options. I think for the 
written statements we have received, we have got some witnesses 
today with different views. So we hope that there will be a 
vigorous discussion among them, too, about what they think of 
each other's ideas.
    Today's hearing will begin with testimony from retired 
General Wesley Clark, former Supreme Allied Commander of NATO. 
General Clark appeared before the full committee in both 2002 
and 2005.
    He will be followed by Mr. Max Boot, who is senior fellow 
in national security studies at the Council on Foreign 
Relations in New York.
    Our final witness will be Dr. Muqtedar Khan, who is the 
director of Islamic studies at the University of Delaware and a 
senior fellow at the Brookings Institution.
    Gert would get mad at me if I didn't also acknowledge that 
Wes is my neighbor and she walks past my house every morning on 
her morning walk. He lives down the street from me, but I see 
you more here, Wes, than I do back home.
    So welcome to all of you.
    And now we will hear from Mr. Akin.
    [The prepared statement of Dr. Snyder can be found in the 
Appendix on page 55.]

STATEMENT OF HON. W. TODD AKIN, A REPRESENTATIVE FROM MISSOURI, 
   RANKING MEMBER, OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

    Mr. Akin. Let me begin by recognizing our new chairman of 
the subcommittee, Dr. Snyder.
    I look forward to working with you, Doctor, and I know that 
under your stewardship the committee will continue to work on 
critical issues facing the Department of Defense in a 
bipartisan manner. Thank you so much for choosing to be our 
chairman.
    That has been the tone of this committee, and I think it is 
very positive. I think it is something that the general 
American public should be pleased with, to see people who are 
trying to solve problems instead of involve ourselves too much 
in politics.
    Today's hearing is the first of a series aimed at breaking 
out of that sort of false concept of saying there are only two 
alternatives in Iraq, either the precipitous withdrawal or to 
stay the course. Somebody once told me that when somebody wants 
to put you on the horns of a dilemma, you don't want to choose 
either/or and it is a poor decision.
    We want to know what are the different alternatives and 
want to try to quantify those. Given the current political 
environment the President's interim progress report on 
benchmarks mandated by this Congress and the debate taking 
place on the floor of the House today, I know that this series 
of hearings could be challenging.
    But I agree with the chairman that the Congress must carve 
out space. We can focus and wrestle with policy, and not 
politics. I hope these hearings provide the space for 
thoughtful, nonpartisan discussion. So I agree this will be a 
useful exercise, but only if it is done in that format.
    The purpose of the hearing is to hear alternatives to the 
current strategy that truly offer a different plan. Simply 
critiquing the current approach is not the point of this 
hearing. It may be helpful, but we need to say what are the 
alternatives. I ask the witnesses to offer and define an 
alternative plan and explain how it is different from the plan 
General Petraeus is currently implementing in Iraq. Let me help 
begin this exercise by identifying key features of the current 
strategy.
    In 2006, the U.S. began shifting its strategy from having 
our armed forces pursue al Qaeda and building the Iraqi 
Security Forces, to a strategy that emphasized having U.S. 
combat forces go door to door performing counterinsurgency 
missions aimed at securing and holding Iraqi neighborhoods. 
Implementing this plan requires roughly 160,000 troops at a 
cost of about $10 billion a month.
    Currently, troop levels also allow the U.S. to train, 
equip, and advise the Iraqi Security Forces and deter regional 
actors from destabilizing the democratically elected government 
of Iraq. There are signs that this plan is working, but 
according to General Petraeus, the strategy cannot be fully 
assessed until this September. I offer this broad sketch of the 
current strategy to emphasize the strategic issues that any 
alternative plan must address.
    Any plan must, at the very least, do the following: first, 
state the roles and missions of the U.S. forces in Iraq; 
second, state the personnel levels required to complete these 
missions; third, state the expected funding requirements to 
execute the plan; fourth, clarify the U.S. role, if any, in 
building the Iraqi security forces; and then last, at a 
minimum, explain how the plan deters regional actors from 
destabilizing Iraq.
    Responding that the current plan doesn't work or fails to 
adequately address these areas is simply not enough. Again, we 
are asking you for an alternative, not another critique. I 
would ask my colleagues on the subcommittee to be vigilant 
about truly challenging these proposals so we can be sure that 
what we are talking about are in fact alternatives.
    With these parameters in mind, I look forward to hearing 
out witnesses' statements, and again, thank you so much, Mr. 
Chairman, to agree to work and take the committee, and I am 
looking forward to today's hearings.
    Thank you. I yield back.
    [The prepared statement of Mr. Akin can be found in the 
Appendix on page 57.]
    Dr. Snyder. I wanted to mention that we have been joined by 
Ms. Shea-Porter, who is actually not a member of the 
subcommittee but has been an outstanding member of the full 
committee and wanted to attend today. We will give her an 
opportunity to ask questions, too, after the other subcommittee 
members, if she would like to.
    As you know, there is a very vigorous debate going on today 
on an Iraq resolution by Mr. Skelton. We don't anticipate any 
votes somewhere between 4:20 and 5, or so, so I think we are 
going to have plenty of opportunity to get at least through one 
round of the questioning, if not more, before those votes.
    So, General Clark, let's start with you, and then we will 
go to Mr. Boot and Dr. Khan. We are going to put the five-
minute clock on just so you will have a sense of where we are 
at. If you see that red light go on and you need to say more, 
you say more.

STATEMENT OF GEN. WESLEY K. CLARK, (RET.), FORMER NATO SUPREME 
              ALLIED COMMANDER, EUROPE, U.S. ARMY

    General Clark. Thank you very much, Mr. Chairman. I have 
prepared a statement for the record I would just like to have 
included.
    Dr. Snyder. All statements will be made a part of the 
record, without objection.
    General Clark. I am very proud to come before you and 
Representative Akin and the other members of this subcommittee, 
first to say thank you because all of us who have served in 
uniform are very grateful for the long support of the House 
Armed Services Committee, what you do and the seriousness you 
bring to the task.
    It is appropriate that you try to get out of the partisan 
mode as you look through these things. I want to just summarize 
a couple of things in my statement, and then talk more about 
the issues that Representative Akin has raised.
    I am not going to talk about every province today. I don't 
think that is the point. But I do want to put this discussion 
in perspective because I don't think it is appropriate--I think 
we have been off-base in the United States for four years in 
focusing excessively on Iraq to the exclusion of other problems 
in the region. There is no solution in Iraq without addressing 
the other problems in the region.
    The idea that somehow a solution can deter outside 
intervention is not going to happen. There is outside 
intervention. Everybody knows it, and we are dealing with it on 
a daily basis in Iraq. So we have to take into account the 
region. We have very strong interests in this region. There is 
hot competition economically. We are working to provide 
protection and security for the state of Israel. We are dealing 
with Iranian expansionism and extremism, and we are dealing 
with al Qaeda in addition to Iraq.
    So these are four long-term enduring interests in the 
region, none of which is resolved in the on-off switch debate 
about troop levels in Iraq, and none of which can be addressed 
satisfactorily if we just pull the plug and leave Iraq. So we 
can't use the Vietnam analogy appropriately in this region.
    The problem, though, isn't troop levels. That was the 
problem initially, along with the nation. We always needed more 
troops in Iraq than what we had. The problem now is, first and 
foremost, the U.S. national strategy in the region. So here is 
my alternative: I would like to see a different U.S. national 
strategy first.
    Why? Because General Petraeus, before him General Casey, 
before him General Abizaid, and everyone of us who have had any 
military experience, have said you cannot win this war with 
military power alone. Military is a necessary, but not 
sufficient, ingredient for the solution. So you have to frame 
the military activities properly.
    The problem is that when we went into Iraq, we began with 
the assumption that Iraq was the first of a series of dominoes 
which could be knocked off or overturned or replaced. As many 
as seven states were in the running as the dominoes, starting 
with Iraq, then Syria, then Lebanon and Libya, then Somalia, 
Sudan and Iran.
    The word was out in the region that Iraq was just the 
first. And so those states on the hit list had an incentive to 
cooperate early to make sure we didn't move to the next domino. 
Immediately, they began to become involved and take action.
    We have been very careful publicly in trying to not 
overplay their role, and certainly there is an insurgency going 
on internally in Iraq. But the point is that there has always 
been outside regional involvement. So what I would like to see 
the U.S. strategy include is a full diplomatic and political, 
as well as military, component. To do that, we have to start 
with a different mindset in the region strategically.
    So here is my alternative. I would like us to renounce our 
aim of regime change, just renounce it. We are not interested 
in changing regimes in the region. We are not interested in 
overturning governments. We already have our hands full trying 
to deal with Iraq and Afghanistan. We don't need to try to 
simultaneously redo governments in three or four other 
countries. It is just not there in terms of what we can afford 
to do.
    We need to engage in sustained diplomatic dialogue with 
these states in the region even if we disagree with their 
policies, even if, as some say, they are in a state of war 
against us. From their perspective, we are probably in a state 
of war against them. That is not an issue. We can still talk 
and we can still find common interests, and we should be 
talking to Syria and Iran. We should be listening to our 
friends in the region like Saudi Arabia, Jordan and the 
Emirates and Qatar.
    We have to understand that the work with Israel and the 
Palestinian issue is part of this problem, because it has to 
deal with Iranian reach. We have to find an alternative to the 
isolation of Hamas in Gaza, because we are going to end up with 
another destabilizing humanitarian catastrophe on our hands 
there that further aggravates the U.S. strategic position if we 
don't. Then we have to link these regional efforts to political 
efforts on the ground to deal with people.
    Now, those are the principles, and that is the change that 
I believe we need. In terms of how that interfaces with the 
troop strategy, well, the troop strategy is great. I mean, we 
are sitting on an insurgency right now and the more troops you 
put out, the harder it is for insurgents to move and fight and 
organize and intimidate people. So sure, I am happy to have the 
troops there, but I think we have overcommitted ourselves.
    So what I am recommending to the committee is this: I think 
we need over a six-month period to pull a couple of brigades 
out so we have the possibility there of a strategic reserve in 
the United States. There are no magic solutions on creating 
more brigades, and the Army is having trouble recruiting now. I 
think that Congress needs to demand of the Administration a 
suitable strategy for the region, a realistic strategy.
    The idea that we can continue to bludgeon away in Iraq with 
the blood and sacrifice of our men and women in uniform, while 
inviting the clear occupation of Iraq in an adverse way by Iran 
and Syria and other regional actors is counterproductive. It is 
not going to lead to the conclusions we are looking for. To be 
honest with you, we have to raise this debate above the troop 
levels to have the kind of impact on the outcome of the mission 
that the American people seek.
    So I am delighted to be here. I look forward to 
participating in the dialogue, Mr. Chairman, but I hope this 
committee will do its duty in helping to raise the dialogue 
above troop strength and into the fundamental aims and purposes 
of U.S. engagement in the region.
    Thank you.
    [The prepared statement of General Clark can be found in 
the Appendix on page 61.]
    Dr. Snyder. Thank you, General Clark.
    Mr. Boot, I am not entirely sure the red light is going to 
come on. We seem to be having little clock problems, but Max, 
try not to be longer than that anyway.

    STATEMENT OF MAX BOOT, SENIOR FELLOW, NATIONAL SECURITY 
           STUDIES, THE COUNCIL ON FOREIGN RELATIONS

    Mr. Boot. Thank you very much, Mr. Chairman, for inviting 
me to testify. I am glad that you are holding this hearing to 
look seriously at third-way options and what we can do in the 
future in Iraq.
    I will talk about that in a minute, but first let me just 
caution you against too precipitous a pullout or draw-down of 
U.S. troops in the pursuit of a third way option. That runs a 
very real risk of disaster. Let me quote to you one prediction 
of what will happen from a rather surprising source.
    Americans must be clear that Iraq and the region around it 
could be even bloodier and more chaotic after Americans leave. 
There could be reprisals against those who worked with American 
forces, further ethnic cleansing, even genocide. Potentially 
destabilizing refugee flows could hit Jordan and Syria. Iran 
and Turkey could be tempted to make power grabs. Perhaps most 
importantly, the invasion has created a new stronghold from 
which terrorist activity could proliferate.
    Now, that quote is not from some supporter of the surge. It 
is not from some Administration apologist. That quote was from 
last Sunday's editorial in the New York Times, called ``The 
Road Home,'' which advocates withdrawal. But the Times was an 
honest advocate of withdrawal, and I give them credit for that 
because its editorial board admits the terrible consequences 
that would follow if we were to pull U.S. troops out.
    The Times favors withdrawal all the same, because it 
doesn't think our forces are doing any good at the moment. I 
can certainly see how they reached that conclusion reading 
their own reporting. But that is not my finding after spending 
a couple of weeks in Iraq in April, and it is not the view of 
many of our servers on the ground with whom I speak.
    If I could just read briefly quotes from an e-mail that I 
got a couple of days ago from a field-grade officer, a friend 
of mine who is currently serving in Baghdad. He wrote to me: 
``Max, I show some positive results of the surge strategy to 
date. I am sure you have the negatives down pat from all the 
media reports.
    ``Deaths caused by sectarian violence here in Iraq are down 
75 percent from January to June. V-bads, car bombs and suicide 
attacks have been cut in half from March to June. V-bads are at 
the lowest level since August 2006. Casualties from V-bads are 
cut in half from February to June.
    ``Attacks on al Anbar are cut by 80 percent since February. 
The Iraqi security forces killed in action are two to three 
times the level of coalition KIA. The Iraqis are fighting and 
dying for their country. Tribes are rejecting al Qaeda in al 
Anbar, Salah ad-Din, and Diyala provinces.
    ``Al Qaeda in Iraq is on the defensive and slowly dying,'' 
he writes, ``but we need time to finish the job.''
    He goes on to say, ``The big negative, of course, is lack 
of political reconciliation at the national level, but this is 
a lagging indicator. Progress has been made at the local level, 
and I believe that national leaders will follow in due course 
once the trend is clear.''
    Now, I agree with my necessarily anonymous friend in 
Baghdad, and I would urge Congress to stick with the surge as 
long as possible. On present trends, the surge can be 
maintained through at least March of 2008. Then we can take out 
one brigade combat team a month to get down to the pre-surge 
level of about 15 brigades, or about 140,000 troops by August 
of 2008.
    That, in turn, could be sustained through 2009, assuming 
that we maintain troops on their current 15-month tours, or we 
could possibly do shorter tours if we are willing to call up 
more brigade combat teams from the National Guard. Of course, 
we can downsize further if General Petraeus so recommends.
    Now, I think we all basically, all the serious participants 
in this debate agree on what the eventual end-state should be--
that we should have a smaller American force focused on 
advising and special operations designed to standup the ISF and 
to disrupt al Qaeda operations. That is the crux of the Iraq 
Study Group (ISG) recommendations that are being championed by 
Congressman Skelton and Senators Levin and Reed. I think even 
the Administration would generally agree that that is the long-
term game plan.
    But there is disagreement on how fast to draw-down troops 
and how many we need to leave behind. The Center for New 
American Security, a Democratic think-tank here in town, has 
outlined a credible model for an advisor-centric approach along 
the lines of the ISG recommendations, but I think it is low-
balling troop estimates.
    The Center for New American Security says its 
recommendations will require 60,000 troops. Based on my 
conversations with military strategists, I think the troop 
figure might be more along the lines of 80,000 to 100,000 
troops or maybe even a little more once you factor in the need 
for force protection, logistics and other demands to maintain 
our advisors and special forces in Iraq. That is the long-term 
end state that I think we ought to try aiming for.
    I think withdrawing all of our combat forces by April 2008 
would be a very big mistake and would have very grave 
consequences. A lot of suggestions have been made to cushion 
the shock. For example, there are calls for diplomatic 
offenses, for diplomatic moves that we can make, including some 
that General Clark just outlined.
    Now, in theory I think these are all good ideas to pursue, 
but I don't think any of them have much chance of working in 
the short term if we are losing the battle on the ground. I 
outlined the plusses and minuses of a lot of those options in 
my written testimony at much greater length.
    I also don't think that concentrating solely on advisory 
and special forces missions right now, which would require a 
radically stripped-down force presence, could work in today's 
climate. That would be essentially repeating the mistake of 
2005 and 2006. As the Iraqis stand up, we will stand down. We 
know that didn't work.
    Just look at what happened in Baqubah where jihadists set 
up their own Islamic state, while we were moving troops out. 
That happened at the Joint Special Operations Command stationed 
only a few miles away at Balad. Our special operators couldn't 
prevent the emergence of an Islamic state under their noses. 
What would they have if they were stationed in the Kurdish 
region or in Kuwait many miles away?
    Our conventional troops, however, have managed to clean out 
al Qaeda strongholds in Baqubah, just as they have previously 
done in Fallujah, Ramadi, Tall'afar and other cities. In the 
past, we didn't have enough troops to consolidate those gains. 
Now, we may finally have enough troops to do all phases of a 
classic counterinsurgency campaign. But that takes time.
    There is no good alternative, unfortunately, unless we are 
willing to accept the disastrous consequences described by the 
New York Times editorial. The longer you allow the surge to 
run, the greater the likelihood that the advisor-centric 
approach will work down the road.
    Now, I realize patience is running out here in Washington 
and across the country. But keep in mind, we are not staying 
with the same old failed strategy right now, a strategy that I 
strongly criticized last year. We are trying a new approach 
that has not been tried before. The surge is plan B. The surge 
is the third way, and it has just started.
    General Petraeus deserves a chance to succeed or fail with 
his carefully thought-out plans, without being second-guessed 
from thousands of miles away. If he succeeds, that will make 
possible the responsible draw-down of U.S. forces without 
risking the collapse of the government of Iraq and the Iraqi 
Security Forces. But if we draw down right now, I think that 
the consequences would be very negative, not only for Iraq and 
the region, but also for America's national security interests.
    Thank you.
    [The prepared statement of Mr. Boot can be found in the 
Appendix on page 67.]
    Dr. Snyder. Dr. Khan.

STATEMENT OF DR. MUQTEDAR KHAN, ASSISTANT PROFESSOR, POLITICAL 
 SCIENCE AND INTERNATIONAL RELATIONS, UNIVERSITY OF DELAWARE, 
   NON-RESIDENT SENIOR FELLOW, SABAN CENTER FOR MIDDLE EAST 
                 POLICY, BROOKINGS INSTITUTION

    Dr. Khan. Dr. Snyder, I am deeply honored to be addressing 
this committee. I want to thank you and Representative Akin for 
not only holding this important hearing, but also for the 
diversity of opinion that you are soliciting.
    I would like to open with two general observations, which I 
think are necessary to provide a context. In the past four 
years, we have been fighting three hot wars: one in Iraq, 
against the Taliban in Afghanistan, and against al Qaeda 
globally. We have been fighting one cold war against Iran, and 
two proxy wars against Hezbollah and Hamas, and all of this 
only in the Muslim world.
    The scorecard is not exactly comforting. We have enjoyed 
partial success against the Taliban in five and a half years. 
We have failed and are failing in Iraq. Al Qaeda is back to 
pre-9/11 strength. It will be a long time before the U.S. will 
be back to pre-9/11 strength. Iran, on the other hand, is far 
from it. Iran has consistently out-maneuvered us in the cold 
war, and our proxies did not exactly distinguish themselves 
against either Hezbollah or Hamas.
    So the question that we ask as we seek alternative 
strategies is how do we factor the monumental incompetence of 
the current Administration? Even if you have a good third 
alternative, will that good third alternative be effectively 
and efficiently implemented? This is another question I think 
the Congress should consider. It is not enough to have a good 
idea. Can we trust the current Administration to execute that 
good idea effectively is another important question.
    I think that we all know why we need to withdraw from Iraq, 
but I believe that if we were to withdraw immediately, it will 
not only lead to a humanitarian crisis of genocidal 
proportions, but a tiny or mini-al Qaeda state will emerge in 
the Anbar Province. Al Qaeda is planning to use European 
citizens as their actors, and I think that the war against the 
West that al Qaeda is waging will be much, much tougher.
    I think the conditions in Iraq would grow so bad that the 
very public today that is demanding that the U.S. troops come 
back, there will be pressure both at home and worldwide for the 
United States to return to Iraq to fix the mess that it 
created. The world will blame the United States for the mess in 
Iraq if we withdraw, because before we went to Iraq, Iraq was a 
tyranny, but it was stable. The population of Iraq was growing. 
After we brought democracy to Iraq, Iraq's population is 
diminishing. It is in chaos. Nothing works there.
    So it is important for us to realize that we are in a 
predicament where we cannot stay in Iraq and we cannot withdraw 
from Iraq. We need to find a third way. That is, we need to 
find a way to have troops in Iraq without having American 
troops there. We must remember that we have more than 250,000 
troops there--150,000 to 160,000 U.S. troops and nearly 100,000 
mercenaries, who are unable with nearly a quarter-million 
forces to stabilize Iraq.
    How do we replace this? I think this is where we have to 
call in the chips. In the Arab and Muslim world, we have so-
called ``allies''--Egypt, Saudi Arabia and Jordan. We have been 
spending billions of dollars over the past few decades 
supporting these regimes. This year alone, we are paying Egypt 
$1.8 billion in military and economic aid; $468 million to 
Jordan in economic and security aid; $370 million to Pakistan 
in military assistance; nearly $100 million to Indonesia. We 
should demand that these allies of ours replace the surgers 
that we will withdraw. They need to put troops on the ground.
    We need nearly 300,000 to 400,000 troops to patrol Iraq, to 
squeeze the insurgency out. If we were to withdraw, not only 
will the insurgency escalate into a civil war, but al Qaeda 
will become a prominent player in that region. It is not in the 
interest of Iran or Egypt or Saudi Arabia to have a 
destabilizing force in the heart of the Middle East.
    The countries in the Middle East are delighted that the 
U.S. is failing, but are horrified at what is happening in 
Iraq. Their delight at U.S. failure trumps their horror at what 
is happening in Iraq. They believe that if the U.S. is 
successful in Iraq, then the U.S. would go after them. So it is 
essential for most countries in the region that the U.S. fail.
    And so what it really means is there has to be not just a 
tactical change in Iraq, but a fundamental change in American 
security and foreign policy in the region. We have to say that 
we are not a global check to the Muslim world. We want to work 
with the Muslim world to stabilize the Muslim world.
    If the threat, or perception of threat that Saudi Arabia, 
that Syria, that Iran, that Egypt perceive from this whole 
strategy of democracy promotion in the Middle East diminishes, 
then they will be more willing to address the horror in Iraq. 
If we provide logistics, if we provide financial support, then 
I think we could compel these countries to put troops on the 
ground. They don't have a choice. Either they work with the 
U.S. now to stabilize Iraq, or get involved in a regional 
conflict if the U.S. were to withdraw immediately.
    On the issue, it is most important for us to re-think our 
strategies toward Iran and Syria. Iran is essential to the 
stability of Iraq now and after our withdrawal from Iraq. If we 
need a strong Iran to stabilize Iraq, bombing Iran or weakening 
Iran as we pull out of Iraq will essentially lead to chaos in 
the region. We will be creating a power vacuum. We have to 
determine who is going to fill the power vacuum.
    I think it is important for the Muslim world to stop just 
criticizing the U.S. and step up to the plate and dealing with 
the mess that exists in the Muslim world. I think it is 
important for us to call upon our allies to help us. We have 
helped them for decades. We are in need, and it is time for our 
friends to step up.
    Dr. Snyder. Thank you all for your comments.
    We will begin the round of questioning. We are having some 
clock problems. The timer works, but the lights don't work, so 
when you hear a gavel come down, that will be about your five 
minutes and it will give you a chance to wind up.
    Mr. Akin and I are going to put ourselves on the five-
minute clock so that we won't ramble on, I guess, is the bottom 
line. We want to give everybody a chance.
    So go ahead and start the clock there.
    I have always enjoyed a good bar fight, and so my first 
question is, I would like to give each of you an opportunity to 
comment on anything that you heard from the other two.
    General Clark.
    General Clark. You know, I am all in favor of great work by 
the military. Most of these guys have worked with me or for me, 
and we have all been to the same schools. I admire our 
leadership, our military leadership. Both Petraeus and Odierno 
worked for me at times.
    I understand, I think, what their motivations are and where 
they are headed. Of course, they want more time. Of course, 
other people in the chain of command below them see the 
progress. It is inevitable that when you put more troops in, 
you sit on an insurgency. It is harder for them to move; harder 
for them to resupply; harder for them to organize; harder for 
them to intimidate.
    There is no question that you gain when you put troops on 
the ground. The question is, what is resolved? The plan behind 
the surge was that the presence of the troops, the sitting on 
the insurgency, would lead to a political outcome that ended 
the conflict and ended the motivation for the fighting. That is 
what hasn't happened.
    Now, is it a lagging indicator? My guess is it isn't. The 
motivation behind the surge was that people are fighting 
because they are afraid, and once you stop the killing, they 
won't be afraid. I don't think that is the sum of the 
motivations inside Iraq. Instead, it is a combination of an 
opportunity to grab power. It is personal ambition. It is 
regional incentivization with contacts with outside powers. 
Without a diplomatic strategy for the region, those motivations 
will not be addressed.
    So I don't think it is adequate simply to say, let's defer 
any strategic discussion, support the surge, and then we will 
see what happens. This Congress needs to be heard that this 
Administration needs a regional, diplomatic strategy different 
than the current diplomatic strategy.
    Dr. Snyder. Mr. Boot.
    Mr. Boot. Well, I certainly agree that we need a regional 
diplomatic strategy, and we can always use more effective 
diplomacy. But I think it would be a mistake to oversell what 
diplomacy can do when our troops are not seen as winning on the 
ground. In fact, the perception is that they are being defeated 
and are on their way home. That does not create great 
incentives for those countries in the region, those players in 
the region who don't like us, to negotiate with us.
    When you look at things from the standpoint of Iran and 
Syria, why would they want to cut a deal with us right now? 
They have us exactly where they want us. They are bleeding us 
slowly. Their proxies are expanding their spheres of control 
within Iraq. They have no reason to compromise.
    The Iraq Study Group suggested they have a theoretical 
interest in the stability of Iraq. That may be the case or that 
may not be the case, but they have a greater interest in 
expanding their sphere of influence, which they are doing at 
the expense of the stability of Iraq, and they have an interest 
in keeping the United States tied down and fighting us by 
proxy. That is what they are doing very effectively.
    Unless they see that their strategy is not going to work, I 
don't see any reason why they should become any more 
accommodating with us. There are also major concessions that 
would be required in order to win Syrian or Iranian cooperation 
that don't generally get mentioned by groups like the Iraq 
Study Group or others.
    For example, what about the Iranian nuclear program? Are we 
going to allow them to go nuclear? Is that going to be the 
price of some help that they might give us in Iraq? What about 
Syria? Are we going to allow them to dominate the democratic 
state of Lebanon? That is what they want. Are we going to allow 
that as the price of some Syrian help in the case of Iraq?
    Those are very, very hard compromises to make. In fact, the 
Iraq Study Group shied away from making those very compromises 
because they know how unpalatable they would be to most 
Americans, when you think seriously about what is the price of 
cooperation.
    Dr. Khan also raised the issue of getting cooperation from 
some of our so-called moderate Muslim allies in the region. I 
am all in favor of it. If we could convince the Egyptians, 
Saudis, Indonesians and somebody else to send hundreds of 
thousands of troops into Iraq to take up what our troops are 
currently doing, God bless them. I am in favor of it. That 
would be a wonderful idea.
    However, I think the odds of that actually happening are 
basically a snowball's chance in hell. We tried to get those 
troops when we initially invaded, which looked like a much 
easier proposition than what we are asking them to undertake 
right now. There is no chance that those countries are going to 
willingly send their troops to face the kind of challenges that 
our troops would face.
    Even if they did send them, you have to think about the 
political repercussions of that. Would the majority Shiite 
population of Iraq welcome primarily Sunni troops coming from 
countries that have expressed their fear and abhorrence of 
Shiite control of Iraq--countries that basically want to help 
the Sunni minority? That is very unlikely. Would the Sunni 
minority in Iraq favor troops coming in from Shi'ite countries 
like Iran? That is very unlikely, too.
    So I don't think that there is an easy way out of this 
where we can say some other troops will come in, or some kind 
of diplomatic offensive. We have to face the harsh reality, 
which is that we have to win or lose this war on the ground, 
and no amount of diplomacy can make up for that hard military 
reality.
    Dr. Snyder. Let's give Dr. Khan time to make any comments 
he wants to make, and then we will go to Mr. Akin.
    Dr. Khan. Thank you. Time to take the gloves off. 
[Laughter.]
    Dr. Snyder. We call these ``vigorous discussions.''
    Dr. Khan. Let me put it very bluntly as to what the U.S. 
presence in Iraq today is. What the jihadists and insurgents 
have accomplished in Iraq is amazing. They have contained the 
United States in Baqubah and in Anbar province. These are a 
bunch of fighters. They have held a superpower and completely 
contained and boxed the United States in Iraq for four years.
    They are providing a public good for all these rogue 
regimes and all these regimes that we don't like by creating 
conditions where the U.S. is unable to do anything to any of 
these regimes--the dreams of reforming Syria, the dreams of 
containing Iraq, the dreams of transforming Saudi Arabia and 
Egypt--all of those are now down the drain.
    The only thing that the U.S. now wants is to get out of 
Iraq with its pride and not lose people. This is what these 
people have accomplished, and this strategy of continuing with 
the surge, with the United States unilaterally, with the rest 
of the world hating us, and unwilling to cooperate with us, is, 
as I have said, a disaster for the region as well as for the 
U.S.
    So there has to be a fundamental change. Yes, we have to 
manage to keep stability in Iraq, but we have to recognize that 
our strategies, our stated goals, have created more enemies in 
the region than allies. The reason why Egypt, the reason why 
all these countries do not want to cooperate with us in 2003 
was because we were telling the rest of the world that you are 
next.
    Look at the Pew study report. We created an environment of 
fear in the rest of the Arab world that we were going to come 
after all of them. That is why they didn't cooperate in 2002 
and 2003. Now, they are laughing at us because we are not even 
able to go after and democratize Anbar province.
    So we need to be able to come out and say that these goals 
have changed, and we are real. I would call for a new America 
with a new strategy. And then people will work with us. Nobody 
wants a nuclear Iran in that region. Nobody wants al Qaeda 
dominant in the world.
    Dr. Snyder. Mr. Akin, for five minutes.
    Mr. Akin. Thank you very much, Mr. Chairman. I thought your 
question was great.
    I guess the thing we were hoping to do was to say, are 
there alternatives? It seemed like Dr. Khan, you got pretty 
close to it by saying we are just doing to replace the troops 
with the troops in these other countries.
    I have to share with Mr. Boot, you probably have a lot more 
knowledge of the area than I do, but I am a little skeptical 
whether or not all these countries are going to send troops in 
to replace ours, or whether they could be as effective as ours, 
but it is at least an alternative. I think it is good.
    We are here first of all to define some distinctly 
different things. None of you talked about a three-nation Iraq. 
Is that even an alternative? Or is that something that is not 
an alternative? I thought of a completely wacky idea, but I 
think this is a place where we throw out some ideas and talk 
about them and say, what I have been encouraging this committee 
to do, if it were up to me, and I am not in charge, but if it 
were up to me, I would have a list of different possibilities 
and then I would test those in terms of what is the proposed 
success; what is our goal; and what it is going to cost us, and 
all of that.
    So we basically weigh a series of alternatives. We don't 
have to pick on here. That is not the job of this committee, 
but it would be helpful if we had some of them defined. Is a 
three-nation Iraq even a possibility or not?
    Here is the wacky idea: What happens if you change the 
capital of Iraq? Baghdad is a big pain in the rear. Why don't 
you move the government to some other place, and then let 
Baghdad, if they want to just fight among themselves, at least 
it is not the center of government. You can at least let 
government functions go on without terrorism of Baghdad falling 
into it. I don't know, maybe that doesn't make sense, but we 
need some innovative kinds of solutions.
    General Clark, your proposal in terms of standing back from 
the forest to getting a little further back and defining what 
our overall strategy is, that is fine. It still doesn't really 
answer a whole lot. You are saying we are still going to have 
to take on the chin that we have to beat the insurgents on the 
ground, even if we have a little different strategy, we still 
have to fight on the ground.
    I think I am hearing Mr. Boot, you are saying the same 
thing, that there is really no getting away from that. You just 
have to beat these guys on the ground, and if you have enough 
troops and given some time, we will succeed in that.
    I think Dr. Khan, you are saying, I don't think you are 
ever going to do that; you have to get the other nations in the 
region more involved so that they have some buy-in.
    So I just wanted you to respond to that. Give me some 
alternatives and some differences.
    General Clark. First of all, let me respond in reverse 
order, if I could. Yes, you must succeed in creating an 
impression of progress on the ground. That is important for a 
whole host of reasons. But I disagree that you have to hold up 
on the dialogue and diplomacy with Iran and Syria until you 
have completed the surge.
    The truth is, we have the greatest leverage that we could 
possibly have. We are the United States of America. We are the 
most powerful country in the world. We are the most legitimate 
country in the world. We dominate every global institution. 
What Iran wants, even more than a nuclear weapon, is the 
blessing of the United States of America and the West and the 
world system, of their civilization and their economic 
opportunities and political opportunities in the future.
    I know the statements of Ahmadinejad, but Ahmadinejad is 
not the only guy in Iran. We have plenty of negotiating 
leverage. What I continue to hear from some people associated 
with the Administration is that there is not enough leverage, 
if they could just get more leverage on Iran, they would be 
happy to talk to them. I think it is the wrong approach.
    I know I am taking up this time to explain this, but it is 
an odd thing that you have a retired general who is an advocate 
of diplomacy, and I am sitting next to a representative from 
the Council on Foreign Relations, which is a specialist in 
diplomacy, who is an expert on combat.
    What I am trying to suggest is that if you are going to use 
diplomacy, use it now, while there is some hope of progress on 
the ground, while you can save a few more lives, and prevent a 
little more heartbreak. But you cannot do it, as Dr. Khan says, 
unless you sincerely change the U.S. strategy.
    From Iran's perspective, they think we are at war with 
them, and determined to destroy their regime. They don't think 
we can do it. Ahmadinejad would like us to try, because we 
strengthen him when we do that. What we need to do is undercut 
him the same way we undercut these east European communists in 
the 1970's and 1980's, through a host of other political 
measures. If you do that, the strength of the resistance on the 
ground will slacken. The diplomacy will enhance our ability to 
cope with the insurgency and with al Qaeda. It is mutually 
reinforcing.
    I think the idea of splitting Iraq in to three nations, it 
is a gimmick. I cannot support it in good conscience. I have 
seen what partition does in the Balkans. Yes, we divided 
Bosnia, but it was already divided. The pain of that ethnic 
cleansing was enormous, and for us to propose it in Iraq, I 
know it is happening, but for us to be the sponsor of it and 
the author of it, and to own the consequences, and to have 
Iraqis 30 years and 60 years from now saying, Mr. Bush gave 
away my home in Baghdad. Why take that on ourselves? It is not 
going to bring a solution to the violence. It is just a recipe 
for another blame-America thing.
    As far as the moving of the capital is concerned, it is 
another effort. I don't think there are any short-cut answers 
on this. We have a mistaken strategy in the region. It has 
caused us the problem in Iraq. Until we go to the heart of that 
strategy, all the political gimmicks we try and all the 
military tactics we enhance are only marginal to a solution.
    Dr. Snyder. Mr. Akin, do you want to hear from Mr. Boot and 
Dr. Khan?
    Mr. Boot. I would be happy to weigh in and support with 
complete agreement with General Clark that I don't think that 
partition offers the way out of Iraq. It is impractical for a 
variety of reasons, including the fact that the population is 
so intermixed, especially in major metropolises like Baghdad 
and Mosul and others.
    Baghdad is the capital. The population would still be 
there, and you have to figure out what to do with that. If you 
tried to separate it, as General Clark said, the result would 
be mass suffering on a terrible scale.
    The only way it would really work I think is if it were 
implemented the way it was in Bosnia, where you had an accord 
among all the different sides, which was then enforced by a 
heavy outside troop presence, which in the case of Iraq would 
probably mean 400,000 to 500,000 troops. But that is a recipe 
for keeping more American and foreign troops in Iraq, and not 
getting them out.
    So I don't think that would really accomplish the objective 
that we are trying to achieve with partition in any case. It is 
not a realistic solution right now because most Iraqis 
themselves oppose partition. You don't have a situation as you 
had in Bosnia where all the parties were exhausted by the 
conflict and therefore were willing to come to the table and 
agree on partition. That is not the case in Iraq today, so I 
don't think that offers a very workable solution.
    Let me, since you do want a full and frank exchange of 
views here, while I am agreeing with General Clark in one area, 
let me disagree with him on another, which is that while I 
completely agree on the general importance of diplomacy, I 
don't know that it really offers a way out of this.
    What General Clark is basically suggesting is that--and 
what Dr. Khan is also suggesting--is that we renounce goals of 
regime change, and we basically say that we are happy with the 
status quo in the Middle East; that we will work with the 
existing regimes, and therefore this, in turn, will lead them 
to work with us.
    I am not sure it would be that easy. Keep in mind that this 
is the strategy we were more or less pursuing prior to 9/11. 
There is a reason why we changed strategy after 9/11 because 
what we had seen prior to 9/11 was that we were in bed with the 
dysfunctional status quo in the Middle East; that we were 
backing these despotic regimes that were hated by their own 
people. As a result of that, many of their own people hated the 
United States.
    Now, today it is true that we are at odds with the regime 
in Tehran, but keep in mind that by all evidence, the United 
States is very popular with the people of Iran, precisely 
because we are at odds with the regime in Tehran, because they 
know that we stand for liberty and against the oppression, 
which they hate, which emanates from their own regime.
    Even if we wanted to, I am not even sure we could cut a 
deal on any acceptable terms with the regime in Tehran. Those 
who say that we ought to reach out to them think that they want 
to reach out to us. That is not the evidence that we see. When 
our ambassador and the Iranian ambassador held talks in Baghdad 
on May 28, what did the Iranian regime do at that very same 
time? It was grabbing four Iranian-Americans and jailing them 
on trumped-up charges of espionage, which was basically a giant 
``up yours'' to the United States. And that is what they think 
of diplomacy. That is what they think of political 
negotiations. They are going to take these hostages.
    And certainly the statements that you hear from President 
Ahmadinejad are not those that would be conducive to a real 
dialogue. In fact, I am not an expert on Iran, but a lot of 
Iranian experts will tell you that the Iranian regime basically 
depends upon keeping the great Satan as this bogeyman. They 
don't want to establish relations because that would undermine 
the rationale for their dictatorship.
    So I don't think that the short-term prospects of reaching 
a deal with Iran are very good. In any case, I go back to a 
point where I think General Clark and I agree, that if you are 
to have any chance whatsoever of reaching any kind of deal, you 
have to improve the status on the ground in Iraq. You have to 
stabilize the situation and negotiate from a position of 
strength, not of weakness.
    Dr. Snyder. Dr. Khan, I will give you a chance to respond. 
I think we are going to need to pay a little more attention to 
our time. We have seven more members that all will have 
questions.
    Dr. Khan.
    Dr. Khan. I don't disagree with anything that General Clark 
had to say. On the three-nation Iraq idea, I want to just point 
out that the struggle in Iraq is not about territory, so a 
territorial separation will not solve the problem. The struggle 
is for power and resources.
    So for the first time in 500 years, the Shiites have an 
opportunity to dominate Baghdad. The Ottomans kept them away 
for 500 years. For the Muslim world, this is not a small thing. 
This is a major shift in power, with psychological implications 
for the Arabs, as well as for Muslims in general. So it is not 
a territorial issue that can be resolved through territorial 
separation. That is the first thing to keep in mind.
    Second, we do not want to become the new Great Britain, the 
inheritor of the colonial and imperial legacy of Britain. That 
is important for us to keep in mind. Even though I am from 
Senator Biden's state, I disagree on this issue very strongly.
    And finally, on the relocating of the capital, where would 
you relocate it to? Basra? It will further underscore the idea 
that we are trying to hand the whole of Iraq to the Shiites. So 
to think of alternative capitals, quickly you realize that that 
it is not a very good idea.
    As far as the insurgency is concerned, we must realize that 
we do not think very clearly about insurgency. There are three 
or four kinds of things that are going on there: one, those who 
oppose U.S. occupation; two, those who oppose Shiite 
domination; and then those who are against the West in general, 
that is al Qaeda. We have to separate all the three dimensions 
of that insurgency and how we do it.
    If we withdraw, then the insurgents who oppose U.S. 
occupation will diminish, but there will be an escalation in 
those who oppose Shiite domination. So we need a political 
solution so that the Sunnis realize that they not going to live 
in a Shiite-dominated Iraq after we withdraw, and that will 
eliminate all forms of insurgency, and that will only leave al 
Qaeda, and that we have to deal with, and we would have a major 
ally in Iraq.
    One, I just want to make this point, that Iran is out to 
get us. Iran wants to bait us. So it is really very important 
for us to remember Iran wants us as a friend, as an ally. They 
want to go out with us. They want to be seen with us in the 
U.N., et cetera, et cetera. The reason why Ahmadinejad says all 
those things is very simple. We have made more concessions to 
Ahmadinejad than we ever made to the moderate Khatemi, who did 
great things which are pro-democracy.
    So apparently, playing the bad boy seems to be getting more 
rewards for Iran than playing the good guy, and of course, but 
also partly moderated by our diminished position as a result of 
what is happening in Iraq.
    Dr. Snyder. We will now go to Ms. Sanchez for five minutes, 
and hopefully we will be rededicating ourselves to the five-
minute rule. Ms. Sanchez.
    Ms. Sanchez. I love how you call up the five-minute rule 
after you are done.
    Dr. Snyder. I know it. [Laughter.]
    Mr. Akin and I, we are done, so go ahead. [Laughter.]
    Ms. Sanchez. Anyway, gentlemen, thank you for being before 
us.
    I want to thank the new chairman of this committee. I have 
had the pleasure of serving with you on personnel as my 
chairman of the Armed Services Committee. I think you do a 
great job, so I am real excited to have you head this.
    And welcome to all of you, especially General Clark. Good 
to see you before us again today.
    Oh, gosh. You know, I think our troops are doing what they 
have been asked to do. I think they are doing a great job for 
what they have to do. I think from a military standpoint, this 
really isn't about the military anymore. Unfortunately, Mr. 
Boot, when you said they are bleeding us slowly, that is what 
they are doing to us militarily out there.
    So I really come back to what do we do about the economy 
out there, and what do we do with this government, and what 
kind of government do we have there. What do we need to see 
from these people? I go back to in March, I led a delegation 
over to Iraq, and Ms. Shea-Porter was with me.
    Because we were all women, we sat down with some of the 
parliamentarians of Iraq who were women. It was really 
interesting to be in that room, because these three women--one 
a Christian, one a Shiite, one a Sunni--was like they had 
stolen each other's boyfriends. They weren't looking at each 
other. They weren't talking to each other. We certainly 
couldn't get anything done in a 435-member body if we couldn't 
stand each other in the same room. I mean, we still have to 
move forward.
    It was very interesting, because if you listened to each of 
them, each had a different interpretation of what was going on 
in their country. The Shia woman thought everything was 
wonderful. Of course, because that is really who is controlling 
that government. And before, when we were under Saddam, you 
know, her people were at the receiving end of something not 
very nice. So for her the world was wonderful, and wasn't it 
wonderful? And we were all women and it is all wonderful, and 
Ms. Pelosi got elected. The list went on.
    And then we talked to the Sunni woman from Anbar province. 
She said, ``My people are starving. You want to do something 
for us? Feed us. You took the troops out. We can't get convoys 
through. My children are starving out there. Everybody is 
starving. Do something. You want to help us? Get food to us.''
    And then the Christian was like, ``Well, I think we can all 
get along. We are going to work this out.'' They are not going 
to work this out.
    So my question to you, each of you, whoever, maybe starting 
with the general and going down the list: What do we do about a 
government that doesn't want to talk about dividing the oil up, 
which is their main asset? What do we do about a government 
that doesn't to each other? What do we do about a government 
that doesn't want to redo the constitution?
    We talked to NGO women who said, ``You gave us a worse 
constitution than we had under Saddam. We have no rights. I 
have the same rights as a child or a mentally disabled person 
now. Thank you very much.''
    So I want to ask you, what do we do? What do we do about 
the political situation, because that really is for me what the 
third way needs to be if we are going to stay out there.
    General.
    General Clark. Let me begin by saying first, it is not our 
country. We don't own it. We cannot rewrite the constitution. 
We cannot tell them what they should and should not believe, 
and how they should behave toward each other. What we can do is 
try to muster together all of the different ways of reaching 
the political leaders and the factions they represent. We can 
do this to try to change the outcome. That is why we must 
combine the military, the diplomatic and more intensive 
political work in the provinces in Iraq.
    I cannot understand why this Administration and the people 
who seem to support it refuse to engage in diplomacy in the 
region. I don't understand it. They would rather see people die 
than initiate a dialogue. I don't understand that. If we would 
do that, I think there is a chance we could reduce the levels 
of tension and then maybe some of these other changes could 
work their way out. But our political options are limited 
because we designed it in such a way that we gave the country 
back to its occupants.
    Mr. Boot. I don't think that the political solution to Iraq 
lies outside of Iraq. The key is, how do you get the different 
factions to come to some kind of agreement?
    We have been trying very hard to do that over the course of 
the last four years. Our ambassadors, Khalilzad, John 
Negroponte, and now Ryan Crocker, they have all had these 
meetings in Baghdad of representatives of the various factions 
trying to work out an agreement, and they have not had a lot of 
luck because even when they have worked out agreements, they 
haven't meant very much on the ground because there has been 
pervasive climate of insecurity and fear in which no faction 
feels able to make compromises or concessions to the other one 
because they are afraid they are going to get killed if they do 
that, and their people are being killed in the streets.
    Now, the theory behind the surge, the theory behind the 
current plan is if we can create some stability, if we can 
decrease the climate of fear, this will allow those Iraqis who 
are more moderate, and they do exist--people like Ayatollah 
Sistani, the former Shiite cleric in Iraq has been----
    Ms. Sanchez. I understand the surge prospect. I don't need 
to be schooled on that. Maybe I can hear from Dr. Khan, unless 
you have something new to add.
    Mr. Boot. Well, the only thing I would add is, I----
    Ms. Sanchez. I don't think the surge is working.
    Mr. Boot. Well, I think there are indicators that it is; 
there are some indicators that are negative. It goes both ways. 
But let me just, one point I will make in conclusion is, I 
don't think the political problems are insoluble. That is the 
same thing that people said about Yugoslavia in the early 
1990's.
    These people just hate each other; they want to kill each 
other. Well, we saw that with farsighted American policy, 
implemented by General Clark, with troops on the ground 
providing security, we were able to solve those problems, and I 
think we are able to do the same thing in Iraq if we just focus 
on security first.
    Ms. Sanchez. Dr. Khan.
    Dr. Khan. I have a question for you. After that woman told 
you that her people were starving, what did you do? Did you 
step out of the room and immediately call for an aid truck or 
food to her constituency?
    Ms. Sanchez. No, certainly not.
    Dr. Khan. Why not?
    Ms. Sanchez. Because I am not in the executive branch. I 
don't control the troops. That is what the President controls.
    Dr. Khan. Well, this is exactly the thing. If we are doing 
things like that, then the message would go that we really care 
about the people to whom we have decided to bring democracy and 
stability. If we really cared about the suffering under Saddam 
Hussein, we will surely care about the suffering when they are 
starving. An initiative such as that would have done a lot more 
for winning hearts and minds. And believe you me, it will have 
cost us far less than a single cruise missile.
    This is really an important issue. The President promised 
three steps when he talked about the surge. He talked about 
fighting insurgency, moving development and a political 
solution. And on the other two things, we have hardly achieved 
anything. It is like this, we spent $600 billion on defense, 
and we spent $100 million on public diplomacy in his budget, 
and all of it was redirected toward Katrina--no money to do 
nothing.
    The rest of the world knows this. It also tells us very 
clearly that we actually do not have any intentions to have a 
sincere dialogue with these people. You know what the best 
argument about not attacking Iran is? The best argument for not 
attacking Iran is the bombing will not work. The message that 
it sends is that our first choice is bombing. If bombing works, 
why do we talk? But if bombing cannot work, let's try 
diplomacy.
    This is the message which really resonates very strongly in 
the Middle East, and it is important for us to sort of get 
behind that. We have to convey the message that America is 
America. It is the city on the hill. We care about people 
regardless of who they are.
    Ms. Sanchez. Thank you, Mr. Khan.
    Thank you, Mr. Chairman.
    Dr. Snyder. I want to recognize Mr. Johnson for five 
minutes, but first acknowledge that he is Mr. Skelton's 
appointee to this committee, following the resignation of Marty 
Meehan.
    We welcome you, and you are recognized for five minutes.
    Mr. Johnson. Thank you, Mr. Chairman. I am honored to serve 
on this committee and under your leadership, sir.
    I would say that I think it is important for us to 
understand how we got to this point. It was indeed a lack of 
diplomacy that got us in this hot water that we are in. On the 
flip side of it, it was actually aggressive behavior by our 
executive branch, and the motivation of that aggression, what 
was it?
    Some believe it was to capture and control the significant 
untapped oil resources that exist in the reserves in al Anbar 
province, about 35 billion barrels of oil awaiting 
exploitation. Some believe that was the real reason that we 
went into Iraq and invaded that sovereign nation, against the 
advice of many of our military leaders who told us that if we 
were to do it, we would have to have much more boots on the 
ground, many more boots on the ground, than we had the 
resources to supply over there, but we went in anyway.
    And so the result was predictable, and it has been a 
colossal boondoggle. It is a tragedy that has resulted in close 
to 3,600 deaths, $500 billion in resources. We are on the hook 
for $2 trillion to recover from this. Our military assets have 
been so degraded that we now don't have the ability to face any 
other acts of aggression that may require our ground forces.
    And so what do we do from here? Recognizing what got us 
here was the lack of diplomacy and aggressive behavior. Now, we 
need to engage in diplomacy to help us get out of this. I don't 
see where if we continue this so-called military surge that it 
is going to result in a better outcome than what has occurred 
up to this point. In fact, it will just get worse.
    So I like the idea of diplomacy, gathering the stakeholders 
in that region together to talk about the challenges that 
exist. I also like the idea of encouraging with this new 
philosophy, the lack of aggressive pursuit of oil or whatever 
the case might have been. I like the idea of us having a new 
attitude when we approach our partners in the area, to 
encourage them to get involved.
    Certainly, there is going to be a need for a force in Iraq 
to maintain the peace. The Iraqis are not able to do it 
themselves, and so therefore some kind of contingent that is 
made up of forces from other nations seems to be a great idea. 
I would rather us help to fund that kind of operation than to 
just simply step away from Iraq and let it fall into just a 
cesspool of terrorist development.
    So I like the ideas that I have heard from both Dr. Khan 
and also General Clark. I think those can be melded together, 
and I would like to see us have an executive branch that will 
work with Congress to help fashion a new strategy for dealing 
with Iraq. It also plays into the way that we deal with Iran 
and other nations in that area. Do we send a message to them 
that we are coming after you next? We are certainly not in a 
position to do so militarily, General Clark.
    So I would like to ask Mr. Boot to step out now from your 
defense of the surge and just ask you to think just 
theoretically now. How could diplomacy bring about a different 
set of conditions in Iraq? Do you think it is possible that 
diplomacy could make a difference there if would draw down some 
of our forces, send a diplomatic message that we have changed 
our outlook on things, and we now want to bring partners in to 
help us solve this situation? Is that something that can work?
    Mr. Boot. Congressman, I would love it if diplomacy would 
work. I would love it if we didn't have any more fine young men 
and women risking their lives in Iraq. Believe me, nothing 
would make me happier. I just don't see any way we can get out 
troops out of the line of fire and still achieve our basic 
national objectives such as keeping al Qaeda on the run and 
preventing them from taking over provinces of Iraq, and 
preventing a civil war that will spill over into the 
neighboring region and destabilize friendly states.
    I think all three of us basically agree that if we just 
pull out now, the results would be catastrophic. What I 
disagree with is I don't think that diplomacy offers some kind 
of magic way that we can somehow draw down our forces and still 
achieve our objectives. I just don't think that there is that 
magical solution. I wish there were.
    Dr. Snyder. We will now go to those members who arrived 
after the gavel. We will go in the following order in which 
people arrived: Susan Davis, Geoff Davis, Mr. Gingrey, Mr. 
Cooper, Mr. Bartlett, Mr. Miller and Mr. Jones.
    Ms. Davis, for five minutes, and then to Ms. Shea-Porter, 
without objection from the committee members.
    Ms. Davis of California. Thank you very much, Mr. Chairman. 
I welcome you as chairman of this committee as well.
    Thank you all for being here. Actually, we don't always get 
a chance to mix things up a lot, so we appreciate the fact that 
you are disagreeing; that we can hear really the nuances of 
that as well. It is important.
    I just came back from Iraq as well, a very quick snapshot, 
but there are a few things that certainly were clear to me. One 
was that, yes, I agree, we need more time, but the reality is 
that nobody could really put a finger on what that is, and 
certainly short of five to ten years in terms of the 
development of leadership, that probably wouldn't get the job 
done.
    The other thing that I think was apparent to me is the 
threat is real. I don't think we can sugarcoat that in any way. 
But then the reality is, what greater threat are we not 
addressing because we are so focused on Iraq. If you could also 
talk about that, that would be helpful.
    But my question really is around the reality that no matter 
what we do, I think, short of quashing our adversaries in every 
way possible, that it would be seen as a victory by them. So 
the question is, if that is the case--if you agree with that, 
and perhaps you don't--how do we then manage that, without 
accelerating or further creating even greater problems down the 
line? I am not talking about just a good PR campaign. In 
reality, how do we manage that message?
    My guess is that no matter what happens, it is going to be 
a little like Russia in Afghanistan. I mean, that is going to 
be a message. If you agree or disagree, and how do you manage 
it?
    Whoever wants to go first--Dr. Khan?
    Dr. Khan. I find your question very intriguing. You are 
basically asking what are the larger implications of Iraq. I 
think it is not just about Iraq or U.S. foreign policy in the 
Middle East. It is about the status of the U.S. as a dominant 
moral leader in the world, as well as a major player 
economically. What has clearly been happening in the last five 
or six years is that we are bleeding economically. We are also 
bleeding militarily.
    What Iraq has succeeded in doing is exposing the limits of 
U.S. power. The single most important lesson that we can draw 
from Iraq is that the United States is no longer capable of 
achieving political goals through military means. Look at what 
has happened? Israel's failure in Lebanon is another lesson, 
that Israel cannot achieve political goals through military 
means. Our proxy fight with Hamas in Gaza is another lesson 
that we are not achieving political goals through military 
means.
    So in spite of the fact that when the U.S. is 
unquestionably the most dominant military power, our ability to 
achieve political goals through military means has completely 
diminished. This is the most important lesson for us to draw.
    And while we are bleeding in Iraq, China and India are 
growing and growing and growing. The challenges to U.S. 
domination is not coming from the Middle East. It is coming 
from Asia. Europe is becoming economically very strong. The 
pound today is $2.25 or $2.23.
    So we have to recognize that are we going to lose the 
larger picture by pursuing these goals of regime change and 
transformation in Iraq, partly motivated by a vendetta post-9/
11. These are some very serious questions about which we need 
to have debate.
    And on diplomacy, we must understand--the diplomacy is 
something that the State Department does. No. Diplomacy is a 
way of doing business. So we can go to Egypt and say one thing, 
and then Rumsfeld or somebody else says something completely 
undiplomatic simultaneously, and let's hope that diplomacy has 
to work.
    We have to understand that diplomacy is the way of doing 
business. The President is not just the commander-in-chief, but 
also the diplomat-in-chief. It is time he recognized that.
    Mr. Boot. Well, unfortunately I don't think that pulling 
out of Iraq too soon will in any way help us to achieve other 
vital objectives around the world. In fact, I think it would 
imperil----
    Ms. Davis of California. Can you just define for me ``too 
soon''?
    Mr. Boot. I will come to that in a second.
    Ms. Davis of California. Okay.
    Mr. Boot. Because I think if we pull out of the situation, 
given what it is today, that would be seen as a victory for al 
Qaeda and Iran. I think that would be a blow to American 
interests around the world and it would cause our enemies to 
redouble their efforts to hurt us elsewhere. For example, in 
Afghanistan, where a lot of people say if we get out of Iraq, 
we could focus on Afghanistan. Well, I think if we get out of 
Iraq right now, the situation in Afghanistan will deteriorate 
even further because al Qaeda will pour more resources into 
there and they will feel more empowered to come after us the 
way they felt empowered after the defeat of the Russians in 
Afghanistan in the 1980's.
    Now, how do we avert that? I think we have to realize that 
at this point, there is no responsible alternative to a long-
term American presence in Iraq--five, ten years, something like 
that--the way we have had a long-term presence in places like 
Bosnia, Kosovo, South Korea and elsewhere.
    Now, obviously it is untenable to have American troops 
fighting at this level of intensity and suffering these losses 
for five to ten years, but the hope is, and the plan is that if 
the surge can try to stabilize the situation somewhat over the 
next year or so, and as Iraqi security forces increase in 
effectiveness, they can take on more of the burden and our 
forces can downsize.
    I think we all agree that eventually we want to have a 
smaller force. I think something along the lines of the report 
issued by the Center for New American Security, we would have a 
force basically focusing on advisory, on special forces 
missions and so forth. I think it would take more troops than 
they think it would take. As I said before, I think it would 
probably take around 80,000, but I think that we are probably 
going to need to have 80,000 troops there for 5 to 10 years to 
safeguard our interests.
    Ms. Davis of California. Thank you.
    General Clark.
    Dr. Snyder. Go ahead, General Clark.
    Ms. Davis of California. My time is up, but I am trying to 
get in a quick response.
    Dr. Snyder. Go ahead, General Clark.
    General Clark. I do think that when we pull out, we do have 
to manage the perception of that draw down of force. I think 
there is a risk, as your question implies. That is why I 
believe that you have to change the strategy before you work 
the draw down. That change in strategy has to involve the 
principles of renouncing forcible regime change.
    I agree with what Dr. Khan is saying about the movement to 
take advantage of our engagement in Iraq by China and India and 
other powers. We are inflaming the Islamic world. We are 
feeding the al Qaeda recruiting machine. Change the strategy 
first before we worry about changing the troop strength on the 
ground.
    We are debating the wrong issue in the American press. The 
reason we have been debating that issue is because this way, if 
you disagree, you can be said not to be supporting the troops. 
It is convenient shorthand. Everybody understands troops. 
Strategy is too complicated. Diplomacy is too abstract, and so 
forth.
    There is no magic bullet in diplomacy, but if we don't 
change the strategy and start talking to the nations in the 
region and change our aims in the region, then I don't think 
there is much chance of the surge--whatever its military 
success where the troops are at the moment--translating that 
into political success is unlikely.
    Ms. Davis of California. Thank you.
    Thank you, Mr. Chairman.
    Dr. Snyder. Mr. Davis for five minutes.
    Mr. Davis of Kentucky. Thank you, Mr. Chairman.
    I appreciate Dr. Khan's comments very much and his 
perspective. Frankly, I would like to meet separate with you 
where we can have a more free-ranging discussion on this. From 
my own experiences in the Middle East in the military and 
otherwise, the one thing that I think has been interesting in 
the dialogue both on the panel and also with some of the 
members is I think we are falling into a false dilemma here 
very quickly, and that is that it is diplomacy or military 
force.
    Particularly with General Clark's perspective, Bosnia's 
diplomacy was effective because we had overwhelming military 
force on the ground and the ability to enforce our will, albeit 
somewhat ineffectively and ham-handedly in areas. Human beings 
make mistakes, but it was necessary to preserve continuity and 
peace in that part of the world. It was at a critical time that 
much of the world wasn't aware of.
    One of the reasons that the inefficiency, the 
ineffectiveness of the interagency community, the non-uniform 
functions, was I am convinced because there were no casualties. 
As we see on the evening news and the General is agreeing with 
me, these casualties are provoking negative public opinion on a 
variety of factors.
    I think one comment I have heard that has been 
disappointing in is this Administration. I think I have heard 
about eight or nine times. But there is more to it than that. 
This is really where I would like to go with this discussion.
    In Haiti, where many of our mutual friends served, we 
encountered the same problems as in Iraq. The military could do 
its function, but the non-uniform piece didn't. That was under 
a Democratic Administration with a Democratic Congress, I might 
add--a very liberal Democratic Congress. We had the same 
problem. But again, the process is critical here for us to 
understand.
    In Iraq, what we are seeing exacerbated in a huge way, is 
separating out the diplomatic piece. It is a broken national 
security process desperately in need of reform. The term 
``strategy'' has been thrown out, but I haven't heard anybody 
say what that end-state strategy should be.
    I think that in my mind, we need serious reforms of the 
interagency process around a national strategy to integrate our 
instruments of power, rather than deal with the silo of 
diplomacy or the silo of military force, to work with the 
spectrum that will advance our cause and ultimately--to your 
point, as you rightly pointed out--solving that meal problem 
would have built a relationship that would have transcended 
politics. Frankly, we need more of that.
    With that, I would like to open it up to the group to make 
some comments about the need for governmental reforms that 
aren't pejorative statements about one political party or 
another. This is an American problem now. Much of what has 
happened now has been demonstrated in Mogadishu, in Bosnia, in 
Panama. In Operation Provide Comfort, we saw all out of 
proportion to its size--this in Grenada.
    What do we need to do to reform the national security 
process to avoid the problems that we have today in the future? 
I will start with the General.
    General Clark. When we looked at Haiti in 1994, and I was 
the J-5 then, we recognized that we needed to be able to write 
an op plan for the U.S. Government. There was no capacity to do 
so.
    So we convened a group and we wrote the op plan, and it 
said things like in the conventional operations plan, you give 
your task to your subordinate units--this was written to come 
from the President of the United States saying Department of 
Justice provide civil police training and provide the 
rebuilding of the legal system; Department of Commerce 
encourage job creation in Haiti; Department of Health and Human 
Services, look at public health, improve public health in 
Haiti.
    The problem is, of course, there is no mechanism to do 
that. There is no appropriations for it. There is no 
authorization for it.
    Mr. Davis of Kentucky. For the record, to reclaim the time 
for a moment, which is my point. I keep a PowerPoint 
presentation--actually it was Harvard Graphics back in those 
days that one of your officers put together--that actually got 
it only 50 yards down the field--the football field analogy--
and there was no other agency support to do this, even though 
the military force was there. I think that is one of the 
missing pieces.
    If you could continue?
    General Clark. Having said that, once you develop these 
tools, you have to use them wisely. The problem we have in the 
United States if we have been leading with our military. The 
military should be the last instrument used. It became the go-
to instrument in the 1990's because it had communications and 
logistics, and because it could provide for its own security.
    It is far better to have the civilian intervention 
capacity, to be able to do real strategic planning on 
preventive diplomacy.
    Mr. Davis of Kentucky. I agree. I agree wholeheartedly with 
what you are saying. But would you admit, though--and I think 
it is very important for the record to depoliticize what I 
think is going to define our policy as a nation for the next 25 
years--would you admit for the record that in the 1990's, the 
problems that you faced as a commander-in-chief are very 
similar to the ones that Admiral Fallon and Dave Petraeus are 
facing right now, where our let's say the more expeditionary or 
deployable aspects of what I think are our greatest strengths 
as a country--our values, our outreach, our ability to provide 
continuity to people's lives.
    So your troops had to improvise and do things that frankly 
were outside the operational purview, in a way more fitting 
with the small wars doctrine that we experienced at other times 
in our history.
    General Clark. Well, I am not sure why you are asking me to 
make this comparison and make this admission----
    Mr. Davis of Kentucky. The reason that I have is because 
you have been very, very prominent nationally in using your 
prior military experience in our common ground and common 
heritage, to excoriate, and I think in many cases rightly so. I 
have been a critic of Administration policies myself that have 
led us to where we are.
    However, I think it is important that we transcend that as 
Americans versus Democrats or Republicans, and ask the bigger 
question. If the same problem was there in the 1990's that is 
there now, it is simply much bigger because we see it in the 
state of this environment.
    What we need to do is offer a solution, rather than 
generalities, and say what are some of the reforms practically 
that we could do and personnel policy. What are the things that 
we could do that would allow us to go to the doctor's point, 
the soft spectrum coming across that military force is the 
absolute last, but we have a strong military deterrent were 
that needed.
    General Clark. I agree with where you are driving, but I 
want to explain something. I didn't come to this dialogue as a 
member of the Democratic Party. I became a Democrat because of 
this Administration and its preference for using military 
force. The difference is that in the Clinton Administration, 
military force was a last resort.
    In this Administration--and my friend Max Boot illustrates 
some of the attitudes that I have heard from others in the 
Administration--there is a reluctance to talk to people that we 
disagreed with.
    Look, before we went into Haiti, we actually sent Sam Nunn 
and Colin Powell down there to negotiate, and we didn't have to 
do the airborne drop in Haiti. We were able to talk it out, 
rather than invading. We did not do the bombing at the outset, 
and we tried everything to stop the bombing----
    Mr. Davis of Kentucky. Let's stop right there. I am 
reclaiming my time, General.
    General Clark. I just want to make sure there is a clear 
distinction. I am agreeing with you on the need for the tools, 
but I am explaining the difference, and I think the difference 
is fundamental, because it is too late, even if you reform the 
United States government, to use those same tools to get us out 
of where we are in Iraq. It is too late.
    Mr. Davis of Kentucky. What we are talking about, again, 
the political posturing aside, I think that one of the points 
that I would come back to is you had the same fundamental 
national security process and system, and you can't say, well, 
we were diplomats then versus now, because all I want to do if 
you have agreed that in fact the process was broken. The same 
issues were in fact in place at that time.
    It doesn't hide leadership errors, but I think it is 
important that the American people understand that this is not 
simply a personality-driven crisis that we are in. We have a 
deeper crisis and the process of how we proceed with national 
security needs to be addressed that transcends all of this.
    With that, I yield back, Mr. Chairman.
    General Clark. Mr. Chairman, I just can't let the point go 
because I want to make it clear, there is a difference between 
the Administrations. In the Democratic Administration, there 
was every effort made to learn from Haiti. PDD 56 was created 
and we intervened in Bosnia and Kosovo in a much different 
fashion and a much greater awareness of our limitations than we 
did in Haiti.
    Now, when I went to the joint staff in 2002 and talked to 
the J-5 before the operation in Iraq, I said, what about PDD 
56? And what about the planning process, and what we learned 
from the Balkans, because he had been there? And he pointed to 
the third floor of the Pentagon and he said to me, ``Can't do 
it. It is them. They don't want it.''
    We know now from all the work that has been done how this 
Pentagon under Secretary Rumsfeld reporting to President Bush, 
refused to do the post-war strategy planning that was 
doctrinally required and that we did prior to the Kosovo 
campaign.
    So I agree with you on the need for governmental reform and 
the tools, but I want to make clear there was a distinction in 
the Administrations.
    Mr. Davis of Kentucky. Mr. Chairman, could I indulge you 
for 30 seconds?
    Dr. Snyder. You certainly can, Mr. Davis. I like a good bar 
fight. I have already expressed that, actually. Go ahead. 
[Laughter.]
    Mr. Davis of Kentucky. The only thing I am asking you to 
make clear, because it is obvious I think the record is fraught 
with ineptitude in various areas, but the one thing that I 
would come back to is the process allowed that. It wasn't a 
matter of personalities. I would tend to disagree from the 
operational perspective that the Administration is gentle-
handed in its use of the military.
    The bigger issue, and I think really for the record where 
we need to leave this with, is we have a much bigger issue that 
transcends personality, it transcends political party, that can 
somewhat minimize mistakes in this process--to your point 
earlier--that will allow us to use the full spectrum of our 
instruments of power to get to a proper end for a true national 
strategy, which I personally don't believe we have had as a 
country since the end of the Cold War.
    I yield back, and thank you.
    Dr. Snyder. Mr. Davis, to make a very mundane minor point 
that agrees with part of what you are saying, is you may have 
seen on page three of the interim report that came out 
yesterday, this one sentence: Expansion of the PRT program is 
not yet complete, with only about half of the approximately 300 
additional PRT personnel deployed to date. A full complement of 
civilian surge personnel will be completed by December 2007.
    This is something Geoff and I have talked a lot about, the 
frustration. This is not a Rumsfeld problem. This is not a 
Gates problem. It is a problem that somehow in our system that 
the State Department, USAID, or whoever it is, can't get 
civilians on the ground, and here we are at the interim report 
time, and they don't even have half the personnel yet.
    We are giving Iraqis a bad time because they are hitting 
less than 50 percent on their satisfactory/unsatisfactory, and 
we only have half of the civilian personnel in the PRT, which 
is an issue not talked about.
    Mr. Davis of Kentucky. I think it points to the issue we 
have discussed, the State Department authorizations for 
manning, the lack of appropriations for costs, and the same 
officer that did the Harvard Graphics presentation also made 
the point quite clearly the night before the President's speech 
that the State Department would not comply with those personnel 
capabilities because they didn't have them, and that it would 
be ultimately the military.
    Thank you for your indulgence.
    Dr. Snyder. It was really Dr. Gingrey's indulgence.
    Dr. Gingrey for five minutes.
    Dr. Gingrey. Mr. Chairman, thank you very much. That was 
very interesting.
    First of all, let me thank our witnesses, Dr. Khan, Mr. 
Boot, General Clark. I am sorry I missed a lot of this. We had 
a little activity going on on the floor, which is very 
important.
    General Clark, you said you didn't want to let that last 
point go. I need to also say that I want to not let a point go. 
You said under President Clinton, maybe the reason you became a 
Democrat was that he used the military as a last resort and not 
a first resort. I would say that that probably was the 
appropriate posture, being that he had weakened the military to 
such a drastic extent, as well as our national intelligence 
capability.
    But that being said, let me start by saying that I 
appreciate that you have put forth specific details in your 
redeployment plan. It is not a vague troop reduction amounting 
to a limited presence within 120 days, with no plans or details 
for how to make this occur, like something else going on on the 
floor today.
    You actually discuss specific troop numbers and areas in 
which to focus. I do commend you for that. I largely agree with 
your comments that our approach must be linked to a deeper, 
more effective political effort, and that political progress on 
the part of the Iraqi government certainly has been 
disappointing.
    I want to take issue, though, with some of your comments. 
You say the issue isn't troop strength in Iraq, but rather 
United States national security in the region. I don't know how 
these two can be divorced. I want you to talk about that. If we 
have this precipitous draw-down in Iraq, won't it affect our 
national security in the region?
    Dr. Khan said, and I heard his testimony just before I 
left, that we have 100-something thousand mercenaries fighting 
on behalf of the Iraqi government. I don't know who they are. I 
didn't know that. I haven't heard a lot of intelligence, but I 
certainly didn't know about that.
    He says they have to be replaced. Are the Iranians and the 
Syrians realistically going to come in there and do that on 
behalf of this Iraqi government that we have paid such a 
tremendous price and sacrifice and blood, sweat, toil and 
dollars to stand up?
    This is what I want you to talk to us about. Wouldn't our 
national strategy be significantly hampered if the Iranians and 
the Syrians fill the void left by our departure and dictate the 
future course of Iraq?
    General Clark. I think that we have to have a strategy in 
the region that maintains an effective U.S. role, even as we 
are pulling troops back from Iraq. I think the way to do it is 
to change the strategy before you change the force structure 
and force deployments and activities on the ground.
    What I would like to see is a full-court diplomatic press, 
the same way we did it to stop the war in Bosnia. We sent a 
team over there. We had a kit bag of tools. We said we were 
prepared to put so many troops in. If we get an agreement, we 
are prepared to do such and such. There is so much aid that you 
can get, and we are prepared. And there were seven things we 
were prepared to do.
    We also said that we want you to tell us what you want. 
What we need is a list of principles that guide U.S. policy 
that we could say, these principles apply throughout the 
region. Let's say, respect for borders; respect for national 
sovereignty. We say: Here are our principles; do you agree to 
these principles? Can we get a statement on it? Can we move 
forward from there and gradually work to enlarge a dialogue in 
the region?
    If we do that, we will take the venom out of the insurgency 
and out of the resistance in Iraq. We will be able to slide 
those troops out of there in good order, and we will be able to 
maintain U.S. influence. If we don't change the strategy, if we 
continue to say we are not talking to Iran because we don't 
have enough leverage over them and they are evil, and we are 
not going to talk to Syria because we don't like them, and 
there is a U.N. commission; and we don't like Hezbollah and 
Hamas because--if we say that, and we try to isolate these 
states, what is going to happen is they feed the resistance. We 
have more U.S. losses, more instability in Iraq. We undercut 
our own strategy and we undercut our men and women in uniform.
    Dr. Gingrey. General, I want to say that the key in your 
remark, your response, is the modifier ``in good order'' in 
regard to bringing the troops out. Elaborate on that. What 
would you call ``in good order''--120 days?
    General Clark. What I call for is a change in the strategy 
first. I am not advocating a precipitous withdrawal like lining 
the troops up on the road and marching out right now. I am not 
saying that we should do that.
    Dr. Gingrey. General, there is only one----
    General Clark. I don't think----
    Dr. Gingrey [continuing]. Highway of death.
    General Clark. I don't think the situation in Iraq is so 
far gone that we have to just throw up our hands and say, okay, 
we quit. I don't think we are there. I think a year from now if 
we haven't changed the strategy, we could be at the point where 
the American people will believe that.
    You know, there are 25 million people and they are 
struggling to survive in Iraq. There is going to be an Iraq 
whether U.S. troops are there or not. So the question is, how 
do we relate? What we need to do is change the strategy now, so 
that we empower the troops over there to work more effectively 
against whatever elements, hard-heads that are there still 
resisting.
    We have to enunciate the kinds of strategic principles that 
other people in the region can sign up to. If we say we will 
only talk to democratic governments, then there is no point in 
continuing to fight in the region because you are going to 
invite the resistance of those non-democratic governments. We 
don't have the power to effect immediate regime change in Iran, 
Syria, and every other country in the region.
    Why do we want to? Those are their countries. They have 
their ideas. If our ideas are better, let them percolate in. 
This should not be an ideological campaign. What we are trying 
to do is fulfill our obligation to the people of Iraq by ending 
the violence, and get out troops out of Iraq safely. That is 
all.
    Dr. Gingrey. General, my time has expired. I want to thank 
you for your forthright testimony here. I appreciate it.
    Dr. Khan. Can I make a quick 30-second comment?
    Dr. Snyder. A 30-second comment, Dr. Khan. Go ahead.
    Dr. Khan. Yes, sir. The 100,000 people that I was 
testifying to, Congressman, were not mercenaries hired by the 
Iraqi government. The U.S. presence includes 100,000 civilians 
who are not employed by the U.S. Government. They work for 
Blackwater, people who work for Halliburton, people who work 
for various contractors--some armed, some unarmed.
    So if the U.S. were to withdraw, the U.S. logistical 
support is 150,000 troops plus 100,000 additional people, and 
some put the figure at 120,000. So we are looking at more than 
250,000 people to replace this. So if the U.S. were to withdraw 
all its troops, there wouldn't be 150,000 people coming back. 
There would be over 250,000 people coming back to the U.S. from 
Iraq. That is the point I was trying to make.
    Dr. Gingrey. Mr. Chairman, if we have a second round, I may 
have an opportunity to pursue this with Dr. Khan.
    Dr. Snyder. I might say, too, members may have questions 
for the record, and we would hope to get those back timely. We 
are going to be interrupted with votes at some point.
    Mr. Bartlett for five minutes.
    Mr. Bartlett. Thank you very much.
    Do each of you have something to write with and a piece of 
paper? Could you write four things down for me? First of all, 
``hate each other''; ``hate al Qaeda''; ``hate us''; and 
``something else,'' as a fourth line, ``something else.'' Just 
write that down, ``something else,''--``hate Bush.'' Again, 
``hate each other, hate al Qaeda, hate us, and something 
else.''
    Now, if you will write down a percentage by each of those 
that you think accounts for the total violence that we see in 
Iraq. How much of that violence comes from hating each other; 
how much of that violence comes from hating al Qaeda; how much 
of that violence comes from hating us; how much of that 
violence comes from something else.
    Can you write down those four numbers for me: ``each other, 
al Qaeda, us, and something else''? Have you finished?
    General Clark, if you would give your paper to Mr. Boot, 
and----
    [Laughter.]
    Dr. Snyder. Roscoe, would you like me to be humming the 
theme song from a game show? [Laughter.]
    Mr. Bartlett. All right. This should really be in writing 
for me because this is a question I have wanted answered for a 
long time, and we have three really good experts here, for 
which I am very appreciative.
    Are all of your numbers written down?
    Okay. Mr. Boot, if you will hand your paper to Dr. Khan. 
And Dr. Khan will hand his paper to General Clark.
    Okay. General Clark, what were the numbers that Dr. Khan 
had for ``hate each other''?
    General Clark. Fifteen percent.
    Mr. Bartlett. How many?
    General Clark. Fifteen percent.
    Mr. Bartlett. Fifteen percent. What is his percentage for 
``hate al Qaeda''?
    General Clark. Five percent.
    Mr. Bartlett. Five percent. What is his number for ``hate 
us''?
    General Clark. Sixty percent.
    Mr. Bartlett. Sixty?
    General Clark. Sixty.
    Mr. Bartlett. Sixty percent. And ``something else''?
    General Clark. Twenty percent.
    Mr. Bartlett. Twenty percent. What is the ``something 
else''?
    Dr. Khan. The fear the Sunnis have of transition of power 
in a Shia-dominated Iraq.
    Mr. Bartlett. Okay.
    Dr. Khan. We call them ``hating each other.'' It is a 
strategic thing.
    Mr. Bartlett. Mr. Boot, you have General Clark's paper.
    Mr. Boot. Correct. It says----
    Mr. Bartlett. What did he write down for ``hate each 
other''?
    Mr. Boot. Twenty percent.
    Mr. Bartlett. Twenty percent. And ``hate al Qaeda''?
    Mr. Boot. Ten percent.
    Mr. Bartlett. How many?
    Mr. Boot. Ten percent.
    Mr. Bartlett. Ten. All right. And ``hate us''?
    Mr. Boot. Thirty percent.
    Mr. Bartlett. Thirty. And a huge ``something else.'' What 
is the ``something else,'' General?
    General Clark. They are in this for their own gain. This is 
an opportunity to put together a new Iraq, and they want power 
and they want their own values, their own interests, their own 
opportunities, and they are fighting to get it.
    Mr. Bartlett. Okay. And now I guess the only one I don't 
have is Mr. Boot's numbers. Dr. Khan has those.
    What number does Mr. Boot have for ``hate each other''?
    Dr. Khan. He has no numbers for anything.
    Mr. Bartlett. Sir?
    Dr. Khan. He has no numbers for anything. He has a note. 
[Laughter.]
    Mr. Bartlett. Does he have any numbers?
    Dr. Khan. No.
    Mr. Bartlett. No? Okay.
    Dr. Snyder. This was not an essay test, Mr. Boot. 
[Laughter.]
    Mr. Boot. I am better at English than at math.
    Mr. Bartlett. If you were to put numbers down, Mr. Boot, 
what would you put down? I don't want each of you informed by 
the others, but you have----
    Mr. Boot. Well, if I could just read the note, which is, I 
have no idea what the answer is. I don't think anyone does. But 
I think the primary driver of violence in Iraq is hatred and 
fear of each other among the Iraqi sectarian groups, not of the 
United States.
    Mr. Bartlett. Okay. So you would put a big number by ``hate 
each other,'' and the others have a relatively small number by 
``hate each other.''
    This is very informative, Mr. Chairman. I stayed within my 
five minutes. Thank you very much.
    Dr. Snyder. Mr. Bartlett, you get an ``A'' on that test 
because you did stay within the five minutes.
    Mr. Jones for five minutes.
    Mr. Jones. Mr. Chairman, thank you very much. I always have 
great amazement at my friend, the Ph.D., who sits beside me, 
and I found that very interesting, I think.
    I am one of many in Congress who, if I look at the last 
five years--and it is going on five years--and I listened to 
Dr. Khan, Mr. Boot and General Clark. I have great respect for 
you, sir, as well as the two I have not met until today.
    It appears that, Dr. Khan, I didn't hear your presentation. 
I was late getting here, but in your opinion, do we have any 
friends in the Middle East that would like to see--I know they 
would like to see a stabilized Iraq. I assume that, but do we 
have any friends in the Middle East? Or is the hatred so deep 
for America being in Iraq that it is going to take generations 
to be in a situation?
    What I am going to ask you now, and this is the question. I 
have felt for at least a year that if this Administration had 
any hope for a stabilized Iraq, that somebody should be chosen 
to be an ambassador for peace, someone that is internationally 
respected. And then to use, because of his statement last week, 
Colin Powell, because Colin Powell has said there would be no 
military solution. It just is not going to happen.
    Does it make any sense--it would not happen overnight--but 
is there a potential, based on your knowledge of many people in 
the Middle East, that the right person--and I don't know who 
that is--that if this Administration really wanted to see that 
we could maybe have the dialogue that you have spoken about, 
and the general, does that make any sense? Is that even a 
possibility, that the right person could begin a long process 
of trying to develop a dialogue?
    Dr. Khan. I think that the first step that we should take 
is to not see the entire Middle East as monolithic. It is--very 
different. For example, the government which we dislike the 
most is the Iranian at the moment, and the people of Iran are 
the most pro-American in the entire Middle East. The 
governments that we like the most, one of them is Jordan, and 
the people in the Middle East who hate America the most are 
Jordanians. And people who also have the highest support for 
suicide bombings are also in Jordan.
    So we have to understand that there is a lot more 
complexity to this. The people consistently in survey after 
survey in the Middle East make a distinction between America 
and American foreign policy. They consistently say ``we hate 
American foreign policy,'' but they hate America.
    Their biggest fear, hatred, and anger are directed at our 
President, the people like Dick Cheney. They are suspicious of 
people like me. They sometimes like me, and sometimes they 
don't.
    But they have a lot of hope from people like General Clark. 
They have lots of expectations that the good side of America 
will balance those from the bad side of America, and that is 
the hope of ordinary people out there.
    But have these all at a very different level. Their 
animosity, their anger, their hatred, it is at such levels that 
even if you agreed to everything that they wanted, they would 
still come after us, because it is not just about diminishing 
U.S. presence in the Middle East, but it is also for punishing 
the U.S. for the past, according to their perceptions.
    So they want to drive the U.S. out of the region. They have 
other goals which are very similar--regime change, et cetera--
and also they want to punish the West for past crimes, et 
cetera, and they have other theological agendas, too.
    So I still believe that we have lots of friends in the 
region. Plus, their anti-Americanism in the Muslim world is 
much more rational than the anti-Americanism of the Europeans. 
The Europeans don't like us just because of who we are.
    So if you look at the anti-Americanism in Pakistan and 
Indonesia before the earthquake and tsunami and after the U.S. 
provided relief, the positive attitude toward the U.S. in 
Pakistan and Indonesia jumped by 20 percent. It is a huge part 
of the shift, which clearly shows that people in the Muslim 
world are really rational. If we hurt them, they hate us. If we 
help them, they like us. And that is a positive thing.
    There are lots of people. I did see President Clinton in 
one speech in Doha where he postulated a speech that Brookings 
had written for him, and started reciting from memory verses 
from the Quran. I could see people in the Arab world who had 
tears. They seemed to respond to him antithetically. And people 
like Colin Powell, or even Jim Baker from the Republican side, 
will have a lot of legitimacy in the region.
    I have a feeling that President Bush's father probably too 
still has a lot of reservoirs of good will in the Arab world in 
the places where his son doesn't have. So it is all that is not 
lost. I mean, this is not a place which hates us.
    But we must also remember that there is a cognitive 
dissonance in the Muslim mind. Even those who love to hate us 
would still love to live with us and live here. So there is a 
lot of hope for us to build bridges very quickly.
    Mr. Boot. Mr. Chairman, could I just make a very brief 
statement on behalf of myself, and I will let Vice President 
Cheney speak on his own behalf. You know, I agree with Dr. Khan 
that the people of Iran are the most pro-American in the Middle 
East, and as I mentioned before, why are they the most pro-
American in the Middle East? Because their government hates us.
    Whereas if we adopt the policy, which has been advocated 
here by General Clark, of aligning ourselves with the 
government of Iran, we will probably turn the people of Iran 
against us, as we have turned the people of Egypt and Jordan 
and so many dictatorships around the region--Saudi Arabia--
against us.
    Let me just make one other point, if I could, because what 
I see here is a groundswell of people saying we want a 
diplomatic solution to the crisis that we face in Iraq. As I 
said before, I completely agree. But let me give you very 
briefly two examples of seeking a diplomatic solution, one of 
which worked and one of which didn't work; one in 1953 and the 
other one in 1973.
    In 1953, General Eisenhower got us out of the Korean War, 
not by saying we are going to bring the troops home and try to 
make nice with China and the Soviet Union and others. What he 
did was he said we are going to keep the troops in and we are 
going to escalate if necessary. We are going to do anything 
that it takes to win. And he even dropped hints that he would 
use atomic weapons. Within six months, the North Koreans came 
to the table and we have an armistice that has now lasted these 
many decades that has been stable.
    In the early 1970's, President Nixon and Henry Kissinger 
said we are going to bring the troops home, no matter what. And 
by 1972, they had brought the last American combat troops home. 
At that point, the North Vietnamese were happy to sign the 
Paris peace accord because they knew it wasn't worth the paper 
it was printed on. They knew that as soon as it was signed, 
they were set to violate the accord and they would go on to 
invade and conquer and occupy South Vietnam within two years of 
the signing of the accord. And Henry Kissinger claimed this was 
a great triumph of diplomacy. He got a Nobel Peace Prize.
    Well, let me tell you, the South Vietnamese boat people 
don't think it is such a great triumph of diplomacy. The 
millions of Cambodians killed by the Khmer Rouge don't think it 
was such a great triumph of diplomacy.
    Now, the difference between the two is that in the case of 
Korea, our diplomacy was backed by force, and as Congressman 
Davis said, the very important point, it is not a question of 
diplomacy or force. The most effective diplomacy is that when 
used in conjunction with force.
    But if we start withdrawals now, that would be toothless 
diplomacy that would not achieve our goals, but will only 
convince Iran and Syria and al Qaeda that we are a paper tiger 
that can be attacked with impunity, and we will pay a very high 
price for it, not only in Iraq, but around the world in the 
future.
    Dr. Snyder. Ms. Shea-Porter for five minutes.
    Ms. Shea-Porter. Thank you.
    Dr. Snyder. We will go to Ms. Shea-Porter.
    Ms. Shea-Porter. Okay.
    Mr. Boot, how many times have you been to Iraq?
    Mr. Boot. Three.
    Ms. Shea-Porter. Three. And yet you said that you have no 
idea what the people were thinking. When you were talking about 
a diplomatic solution, and kind of pooh-poohing the idea, I 
would have been happy with a diplomatic understanding to begin 
with.
    This is a problem that I think that we don't even 
understand who the people of the Middle East are. You, I am 
very certain, are aware of the fact that half of the Iraqi 
parliament, more than half of the democratically elected Iraqi 
parliament signed requests asking the United States to leave. 
Right?
    Mr. Boot. I am not aware that the Iraqi parliament has 
passed legislation asking the United States to leave.
    Ms. Shea-Porter. Did you know that they signed a petition 
asking us to leave, and do you think that would be a good 
enough reason to leave?
    Mr. Boot. Actually, I don't think there is a single major 
faction in Iraq other than possibly al Qaeda that actually 
wants us to leave. Although if you look at public opinion 
polls, they say that the vast majority of Iraqis do want us to 
leave, but then the next question is, when do you want 
Americans to leave. And they say, as soon as you stabilize the 
situation, because if you leave now, there will be a disaster.
    I have talked to many Iraqis over the course of the last 
four years, and they are all virtually unanimous in saying 
that, and that is the position of the Maliki government, the 
elected representatives of the people of Iraq.
    Ms. Shea-Porter. Reclaiming my time. They did ask us.
    Mr. Boot. They have not. The Maliki government and the 
congress and the parliament of Iraq have not asked us to leave.
    Ms. Shea-Porter. Okay. Well, we will follow up on that, but 
the idea that we don't know what they think is what is so 
disturbing. In the past couple of days, I have had the 
opportunity to sit in a couple of hearings. One of them 
involved people from the CIA, so I can speak about it.
    And we are doing a global security assessment. What they 
said after they had been prodded was we are having trouble 
getting the kind of intelligence that we needed because of our 
strained relations with people on the ground in that area, and 
also countries including European countries.
    Now, they phrase it that countries with bad attitudes don't 
give us the information that we need, but the point is that if 
it is not working militarily, then clearly we need to try 
something else. Today, I was fortunate enough to hear Major 
General Bob Scales talk about with this particular 
Administration, when we say we have a problem, the answer is 
maybe we can find a better computer, or we can find a larger 
weapons system.
    Right from the beginning of time, good soldiers have always 
understood that the way that you get the information from 
people and the way that you win their hearts and minds has to 
do more with the way that we speak to them and understanding of 
their culture. We don't understand. In World War II they 
understood chewing gum and chocolate went a long way simply for 
finding out what was happening. We have not won their hearts 
and minds.
    So I am concerned because I think what is happening is in 
the attempt to win militarily, what we have had happen to us is 
that we have weakened the military dramatically, particularly 
the Army, and I am going to ask General Clark to speak about 
that in a moment.
    But I just wanted to paraphrase General Pace, when he was 
asked if he was comfortable with the idea that if there was an 
emerging fight anywhere around the world, was he comfortable 
with our ability to respond. All of us should be frightened by 
his answer. He paused and then said, no, I am not comfortable.
    If every resource is in Iraq, if every ideology is sunk 
into Iraq--and I think that we are driven by ideology here--
then how will we respond in the world?
    And so, General Clark, I was going to ask you, what do we 
do now? Are you convinced that the Army is indeed strained to 
its breaking point and that we are losing men and women who 
would have gone career, and that we actually have a problem? 
And do you think that Iraq has weakened us around the world?
    General Clark. I do think Iraq has weakened us around the 
world. I think we have wonderful people in the United States 
Army and wonderful leadership, and I think they are over-
stretched, and I think you can see the institution beginning to 
fray now. It has several different problems. One set of 
problems is simply fatigue. The families are fatigued and 
stressed. They have borne an unfair burden of this conflict.
    A second problem has to do with relationships in the ranks, 
and the trust and mistrust between lower and higher authorities 
in uniform. I think that after the conflict, we are going to 
need a full after-action review process, a sort of wringing-out 
that we never did after Vietnam, in which seniors and junior 
leaders exchange views, the same way we do after a tactical 
operation.
    I think that you can see the fraying of the recruiting 
effort now, as well as the problem with the equipment. We 
haven't budgeted everything we need even to re-set the 
equipment, much less the people. So yes, I am quite worried 
about it. I don't think we have the response capability we 
need.
    I would also tell you that more important than the military 
is the distraction that the Iraq commitment is doing to our 
national leadership. We are not focusing on the other issues 
that need to be addressed--our economic competitiveness in the 
world, our larger issues in the Middle East. And so this is a 
highly destructive, very political debate. I just hope we have 
enough wisdom to change the strategy before we pull the plug on 
the troops.
    I was in Israel just before I retired in 2000. I remember 
speaking to the chief of defense, the minister of defense, 
about they were going to pull out of southern Lebanon. It was a 
strategically brilliant move by Ehud Barak, but it wasn't 
covered diplomatically and legally effectively, and the result 
was that when they pulled out, to regain legitimacy and 
rebalance their force, they actually created the impression 
that they were losers, and they were exploited.
    I do worry about the perception management overseas. That 
is why I think we have to have a strategic change before we 
have an operational and tactical change.
    Mr. Boot. May I just jump in with one fast comment? Because 
I completely agree with General Clark that our military is 
over-stretched. Some of us have been saying for years that we 
need a much bigger Army and the Bush Administration has 
belatedly listened to us, but I think too late.
    I don't think you are going to help the Army or the Marine 
Corps by pulling them out precipitously in defeat out of Iraq. 
I think that would be the worst thing possible in terms of 
their morale and their fighting fitness in the future. I think 
a lot of soldiers have been hanging in there because they want 
to be in the fight. They don't want to desert their comrades. 
They want to stay and win.
    Those who have been over-stretched, who have been on 
multiple deployments overseas, if we pull out, you are going to 
lose a lot of the junior leadership and you are going to lose a 
lot of the NCO corps who have been in there as long as they had 
a chance of winning. But if that chance is gone, I think a lot 
of them will leave, and the Army will face a real crisis.
    Ms. Shea-Porter. May I add that we are losing them. I am 
interested that you are talking about it as if it would be a 
future activity. The reality is that right now we are losing 
our soldiers. They are bailing out, and I am worried about not 
having institutional history and understanding for the future.
    The word ``defeat,'' I think we have to get away from the 
word ``defeat'' here. We went in for a mission, and whether it 
was right or wrong, clearly we didn't have the right 
intelligence, but we said we were replacing Saddam and we did. 
And so at this point, I think I would have to argue at the word 
``defeat.''
    I think if we paint it that way, then we are all going to 
be losers for that. If we say that we did what we hoped to do 
in terms of replacing Saddam and giving them a democracy, but 
we don't leave our soldiers in the middle of a civil war, we 
could really start to have an honest dialogue about a 
responsible exit strategy.
    Thank you.
    Dr. Snyder. Ms. Shea-Porter, we appreciate you being here 
today.
    Here is what we are going to do. We may have another 30 
minutes or so. We are going to go a second round, but to my 
committee members, we are going to do a strict five minutes, 
which means the gavel will come down when the red light goes 
on. I think we have a shot at getting around to everybody. That 
means if you are in the middle of an answer, the next person 
doesn't get to talk, so we won't be as liberal this time.
    So we will go ahead and start the round. I am going to 
start off here. Mr. Akin, by the way, is on the floor. He 
wanted to speak on the resolution today.
    General, I wanted to ask one specific question to you. I am 
going to quote you from when you testified September 26, 2002, 
remember, you and Richard Perle just a few weeks before we had 
the vote on the authorization.
    This is what you said a few weeks before that vote: ``We 
should not be using force until the personnel, the 
organizations, the plans that will be required for post-
conflict Iraq are prepared and ready. This includes dealing 
with requirements for humanitarian assistance, police and 
judicial capabilities, emergency medical, reconstruction 
assistance, and preparations for a transitional governing body 
and eventual elections, perhaps even including a new 
constitution.''
    I mean, you could see what was necessary. Anyway, in view 
of your attitude then, what do you think about when we see the 
report come out yesterday that we were talking about earlier 
that says we have only been able to mobilize half of the 300 
civilian PRT personnel.
    What does that tell you as a military guy, knowing that 
some of your colleagues that you were raised with and served 
with are fighting and bleeding overseas, and we still don't 
have the civilian folks on board that we would like to have. 
What does that say to you? What do we need to do about that?
    General Clark. Well, the government hasn't lived up to the 
full set of requirements. And this is really a matter of the 
President of the United States. If he wants the government to 
live up to it, he will tell Dick Cheney, and Dick Cheney can 
probably make it happen. He has made a lot of other things 
happen. He makes it happen quietly, apparently, behind the 
scenes, but if I believe what I read in the newspapers, he is 
the most powerful guy we have ever had in the United States 
government.
    So I don't know why he couldn't produce the kind of PRT 
support we need if we really need it. This government hasn't 
been willing to mobilize and deal with the diplomatic and non-
military aspects of the mission. It has dumped it all on the 
men and women in uniform.
    Dr. Snyder. My second question for each of you, and just a 
brief answer. You have already touched on this in some of your 
written statements and some in response to questions. But these 
predictions of what would happen if things go badly and we have 
a precipitous withdrawal or things don't go well, the ability--
I think you used in your words, Mr. Boot, a catastrophe in 
Iraq.
    You know, the ability to predict human behavior, I can't 
say what my wife is going to tell me tonight when I call her on 
the phone. When you make these kinds of predictions about what 
a society is going to be doing, when you make those kinds of 
statements, how much reliability can we place on it? How much 
reliability do you place on your statement?
    Ambassador Crocker a few days ago I think in a New York 
Times interview made some very strong similar statements. How 
much reliability do we place on that, that those kinds of bad 
things will occur? Thirty years from now if things go 
differently we could be surprised and say, well, bad things 
didn't happen. Tell me how you analyze it as a scholar and how 
that will go?
    Mr. Boot. Well, I think it is based on my general knowledge 
of the situation and arraying the probabilities. I think 
everybody undertakes that. Of course, there is no certitude in 
these kinds of predictions, and I hope that I am wrong. I hope 
that we could withdraw and things would work out much better 
than I expect.
    The problem is that we went into Iraq based on rosy 
scenarios. We went in there expecting the best and we got the 
worst. I don't think we can afford to leave expecting the best 
and be surprised by the worst. Whereas, if we expect the worst 
and plan for it, we can be very pleasantly surprised and things 
may work out much better than we feared.
    Dr. Snyder. Do you have any comments, Dr. Khan?
    Dr. Khan. Yes. I think the United States has a long record 
of not finishing business. After the Gulf War I, we did not 
finish the job then. In Afghanistan, we just up and left after 
the Soviet Union left. We did not finish the job of dealing--we 
did not disarm them. We did not relocate them back to where 
they had come. We left them.
    On 9/11, and contemporary al Qaeda is a consequence of the 
fact that we did not deal with the first problem of 
Afghanistan. If we do the same thing--and I mean we are talking 
of an Administration who did not have a plan in Iraq, but if 
you do not deal with the post-withdrawal phenomenon in Iraq, we 
will be facing something which is much more devastating and 
much more horrific than what al Qaeda brought upon us. It is 
just not about dealing with the public opinion.
    We must also demand responsibility from the American 
citizens. Over 70 percent support for this war. It is not just 
President Bush's fault or Dick Cheney's fault or this 
Congress's fault. They also supported this war, and now they 
want to run away without thinking about it.
    We need to think this thing through, and the civilians need 
to back it up on what needs to be done in Iraq in the long term 
as well as in the short term. It is important for the 
leadership, working with Congress and the White House, to stand 
up and demand from the Americans more responsibility.
    Dr. Snyder. Mr. Johnson for five minutes--a strict five 
minutes.
    Mr. Johnson. Thank you, Mr. Chairman.
    General Clark, you have mentioned a couple of times, 
several times, that we need to change the strategy before we 
redeploy. You gave some examples of changing the strategy, 
renouncing regime change, engaging in dialogue with the 
stakeholders over there, pursue a solution to the Palestinian 
issue between Israel and the Palestinians.
    Are you suggesting that we should maintain the same troop 
levels while we go through that pretty much diplomatic process? 
And should we sustain our current boots-on-the-ground numbers 
while we go through those diplomatic processes and get some 
kind of positive result before we downsize? Is that what you 
are suggesting?
    General Clark. I think in terms of what I am recommending 
for legislation and what the Congress should demand of the 
Administration, it should demand a two-brigade withdrawal so 
that you have a strategic reserve able to be reconstituted a 
little bit earlier back in the United States. Those two 
brigades should be out by Christmas.
    Mr. Johnson. Approximately how many?
    General Clark. Two brigades, that is probably about 10,000 
people by the time you count the support. That shows that the 
Congress then has the ability to direct the executive branch. 
This is better than cutting off funding or other things.
    And then I think the Congress needs to demand that the 
executive branch come over within 60 days and lay out a new 
strategy. And it needs to be debated and the American people 
need to approve of a new strategy. I think if the American 
people really realized what the current strategy is, they would 
be in an uproar.
    Mr. Johnson. Well, I will tell you one thing the American 
public does understand is the intolerable number of escalating 
deaths and maiming injuries that are occurring, as well as the 
financial drain that we are undergoing. The American people, I 
think, want to see a redeployment of the troops now. They want 
to see an end to the hostilities, if you will, now, and that 
may not be militarily the best solution.
    General Clark. No, it is not. I hope that in the Congress 
of the United States that we not only reflect the will of the 
American people, but we help inform the will of the American 
people. I think there is an educational function that is here.
    Look, these are terrible deaths that we suffered, and 
nobody can minimize the costs on the men and women and the 
families in the armed forces. But there are many other issues 
that are facing America right now. We have to get the strategy 
right before we react emotionally to this, because the 
consequences of what we would do were we to just pull the plug 
and let the troops come out in 120 days are likely to be 
profound and far-reaching.
    Mr. Johnson. What exactly do you think would happen on the 
ground?
    General Clark. I think you will further super-charge al 
Qaeda recruiting worldwide. I think you will incentivize more 
attacks against Western institutions.
    Mr. Johnson. In the Shia-dominated region, do you think 
that al Qaeda would be able to take hold and take control of 
that country?
    General Clark. I think it is not Iraq per se. I am 
addressing sort of the worldwide consequences. You disempower 
U.S. credibility and legitimacy around the world. It is more of 
the sort of ``U.S. doesn't have the staying power.'' So 
obviously, I am an opponent of this strategy, and I was an 
opponent of the war. But you have to get out of it the right 
way. If we don't get out of it the right way, we will compound 
our problem.
    So right now out of frustration, a lot of people want to 
pull the plug on the Administration, when what they need to do 
is demand that the Administration change its strategy and its 
approach in the region. That is what is required, and then the 
troops can slide out.
    Mr. Boot. If I may, before the Administration is forced to 
change its strategy, I think it ought to be given a chance to 
see if its current strategy, which was changed six months ago, 
is working or not. As we know, Operation Phantom Thunder, which 
is the surge of operations, finally began in mid-June.
    It is far too early to say whether it is working or not, 
although there are some positive indicators which I mentioned 
to you earlier. So I think we ought to at least give the 
current strategy a chance before moving on to the next new 
strategy.
    Dr. Snyder. Ms. Davis for five minutes.
    Ms. Davis of California. Thank you.
    I think there is certainly an element here in terms of 
trying to pursue an agenda. I think that everybody wants the 
same thing here in the end. What I think is also at play is 
trying to put our goals out there, and in many ways focusing 
the mind. I think someone said a noose focuses the mind like 
nothing else.
    Do you think that there is an element at play here that is 
actually helpful? At one point, I think even General Petraeus 
acknowledge that the Congress being engaged and focused and 
debating and putting proposals out there was helpful. I would 
acknowledge that not every proposal was helpful, but on the 
other hand I think that absent that, there is a perception that 
somehow we are just going to let this go however it moves.
    So I would like some response from you, and then maybe what 
is missing in this, or what surprises you. How is it possible 
for the Congress do you think to play a role other than doing 
``stay or go''? Because that has not been helpful, and I know I 
had an opportunity just two days ago to share that with General 
Petraeus and Ambassador Crocker, that we are getting to that 
same rhetoric. It is not helpful.
    Mr. Boot. If I could say, I completely agree with you. I 
think Congress does have a very useful role to play and I think 
these kinds of hearings are in fact useful to look very 
seriously and get beyond the rhetoric and look into the 
substance of proposals.
    Look, I think the Bush Administration has made many, many 
mistakes over the course of the last four years, and I think 
Congress has been right and responsible in pointing those out. 
In fact, I wish it had done a little more of that on mistakes 
such as not increasing the size of the U.S. military so we 
would have more options--I mean, things that have not gone 
well.
    But what I don't think helps and what I think really 
hinders General Petraeus's mission is when we hear high-profile 
politicians back home saying ``bring the troops out now,'' even 
though when you read the fine print what they say is don't 
bring all the troops out right now; we are actually going to 
keep a force, and so forth.
    But most people don't read the fine print, and the message 
that gets conveyed to our enemies in Iraq is that we are not 
there for the long haul, and therefore that takes away some of 
the impact of our combat operations because they think they can 
wait us out.
    Whereas if we come together as a nation and say we are 
committed to prevailing here, and we will not be driven out by 
al Qaeda; we will not be driven out by Iran; we will stay with 
the democratic government of Iraq, paradoxically, that kind of 
commitment is our best chance of drawing down our forces. 
Whereas if we keep talking about drawing down our forces, it 
makes it very hard to do so because that empowers our 
adversaries.
    By the way, the Bush Administration is guilty of this, too, 
because every few months they read from the Defense 
Department--Secretary Rumsfeld, Secretary Gates--they keep 
leaking, we are about to draw down our forces. That constantly 
undermines what our troops are trying to do on the ground in 
Iraq.
    Ms. Davis of California. General Clark.
    General Clark. I just want to say, look, this is not 
General Petraeus's mission. This is the United States 
government's mission. It is the mission of the United States of 
America and it is the mission of President George W. Bush. And 
that means all the elements of the government should be brought 
to bear.
    I happen to believe that these kinds of debates are 
constructive. I think the Iraqi political leaders do need to be 
incentivized. That is one of the reasons I am recommending a 
two-brigade draw-down mandated by Congress by Christmas, 
because I think they need a rap across the knuckles to get 
their priorities straight.
    I do believe that Congress has an important role to play in 
terms of demanding the strategy. If you don't get the strategy 
you want, then you go to the other measures--the troop 
strength, the funding, the other things that are required. 
Congress has a role not only to raise and maintain an Army, but 
to help the United States correct a series of mistakes.
    Ms. Davis of California. Dr. Khan.
    Dr. Khan. I think that the election season is becoming a 
major distraction for effective discussions about what needs to 
be done. The fact that now the Democrats have an opportunity to 
raise issues, I think there is a lot of posturing that is 
taking place, and it is all about Presidential elections, and 
also getting back and getting even with President Bush.
    I think it was a mistake for this Congress to completely 
surrender the agenda-setting after 9/11 to the Bush 
Administration. And so now we are caught up upon the failures 
of a failed agenda. His initial strategy was wrong to begin 
with, and now he has made errors and failures that are 
compounded by the errors and failures of a wrong vision, wrong 
strategy.
    What the Congress can do is reopen the post-9/11 debate and 
say what was the right thing to do for us to begin with, and 
can we now do those right things.
    Dr. Snyder. Mr. Davis for five minutes--and it will be five 
minutes this time.
    Mr. Davis of Kentucky. I would like to turn the dialogue 
inward for a moment, because I think Dr. Khan brings up a very 
good point. We are mixing strategy and operations and tactics 
here quite a bit in terms of as we discuss this. One center of 
gravity of this dialogue internationally that is taking place 
clearly is seen as the American people. Perceptions overseas 
certainly are--and policies for that matter--are being derived 
based on our reaction to certain things.
    Our debates now, our troops all over the theater last week 
were commenting to me about things they were watching on 
television. Our comments are interpreted through the filters of 
different cultures as well. My concern at the moment is one 
that relates ironically back to the friendly discussion that I 
had with the General earlier regarding our ability to integrate 
and to cooperate effectively, which I believe is less a 
personality issue and more a process issue--rightly the United 
States government, but what is that now other than a bunch of 
silos that don't work well together?
    This is a question I would throw out to the group. I think 
one thing that is critical regardless of what we do--and I 
preface my remark by saying I do not believe that the President 
right now has a lot of credibility with the American people to 
be able to enunciate this vision of where we need to go, 
regardless of what solution that is, whether it is the current 
one or a new one.
    But in reality, we have a deep-root problem of how do we 
articulate to our people to give them context? When I meet with 
the many families that I have of young people who have lost 
their young men--and I meet with every one in the district--
they have a context, a very clear message articulated from that 
young person back to them of the filter of their experience. It 
is sober. It also has a message of understanding being part of 
a bigger context.
    In talking to people out in the street with no connection 
with the military, there is a dissonance that is very real. 
They don't understand the end-state of the policy. We talk 
about intolerable casualties. What does that mean? I lost nine 
of my West Point classmates. Nobody talked about them in the 
past. That was intolerable to me. But in World War II, we lost 
440,000 of our citizens out of a population of 130 million, 
when 10 percent of our population was under arms. People 
understood a context.
    My question for you, to open it up, is most important of 
all explaining to the American people in a democracy how do we 
get to where we are by giving them a vision of what it needs to 
be, not in generalities, but why--not just what--but why we are 
doing what we are doing.
    I will start with Dr. Khan.
    Dr. Khan. Frankly, I don't understand, myself, why we are 
doing what we are doing, because of what the President says and 
what he does----
    Mr. Davis of Kentucky. I agree. We have a broken process, 
but what would you articulate specifically to the American 
people?
    Dr. Khan. I think there are a couple of things that we need 
to understand. There is turmoil in the world and we have to 
understand that as America we have an important role to play. 
It is our responsibility to play the role of the underwriter of 
stability in the world as a sort of police officer because we 
benefit from stability in the world.
    But we must also realize that the threat to the United 
States is not just a threat to the U.S., but it is also a 
threat to the global order that we exist as Americans and it is 
our responsibility to try to understand this. But our response 
has to be much more compassionate, much more understanding.
    Like, for example, our immediate reaction was to seek 
security for the United States by making everybody else feel 
insecure. That is the biggest philosophical error that we have 
committed. We should have fought for the security of all. 
Everybody in the world should have felt secure by the 
initiative that we would take in the post-9/11 world, and we 
would have the world on our side. Even today when I go across 
Europe, I find that even those who are fighting the war on 
terror--the intelligence community, counterterrorism--they have 
absolutely no cooperation from the U.S. The cooperation is one-
sided.
    And all of these things continue to undermine our 
unilateralism. The biggest thing that happened to the U.S. was 
we were an invisible empire before 9/11. We showed our fangs 
after 9/11 and nobody likes that. And how do we tell the 
American people what happened?
    Mr. Davis of Kentucky. And I appreciate that perspective.
    General, what would your message be to the American people 
if you had a clean slate completely, and were dealing with the 
circumstance, to give them context of why we need to do 
whatever that let's say next strategy would be?
    General Clark. At this moment in history, the United States 
is the preeminent power in the world. We can't be safe in our 
own values and institutions and interests at home unless we 
reach out and help others abroad. We need to be helping. We 
need to be promoting and supporting our friends and those who 
share our ideas. That is what we need to be doing.
    Mr. Davis of Kentucky. Thank you.
    Dr. Boot.
    Mr. Boot. I agree that we have a vital and important role 
to play in the world. I think our top priority at the moment 
has to be to attain an acceptable solution in Iraq. I think it 
is naive to think that we achieve our other objectives if 
things come apart in Iraq in the middle of the Middle East.
    Dr. Snyder. Dr. Gingrey for five minutes.
    Dr. Gingrey. Mr. Chairman, thank you.
    I want to say to Dr. Khan and to my colleagues on this 
side--Mr. Davis--that he was talking about the President having 
very little credibility. I would remind both of them and 
everyone present that Abraham Lincoln, President Lincoln, in 
1864 had very little credibility as well. President Truman 
didn't have a lot of credibility in 1945. And here we are 
talking about the court of public opinion.
    I want to remind everybody that in April of 1941, 80 
percent of the American people felt that we should not get 
involved in the situation in Germany, and what was going on 
within imperial Japan. That was 7 months before the unprovoked 
attack on Pearl Harbor. So I just would throw those points out 
there for food for thought and consideration.
    I will direct my question to again, General Clark.
    First of all, again let me just say that I appreciate your 
forthrightness. I think if you looked up the Federal Election 
Commission (FEC) report when you ran for President, you 
probably wouldn't see me as a contributor. You may see Dr. 
Khan's name, from some of the remarks that he has made.
    But since you are not a candidate for President this time 
around, let me ask you this question. You talked about the 
stress and strain on the military and the end strength----
    General Clark. I want to warn you. I haven't said I won't 
run. [Laughter.]
    Dr. Gingrey. Reclaiming my time, because you certainly seem 
very prescient in regard to your plan. In fact, indeed, I think 
that after we get General Petraeus's report, what it should 
outline to us today at this hearing may very well be what the 
Administration has in mind and needs to do. So I commend you 
for that.
    Now to my questions, though. In regard to the cost of the 
war and the strain on our troops, do you think that we should 
institute a war tax? And do you think we should reinstitute the 
draft?
    General Clark. I think that the United States needs to 
distribute the burdens of the war more equitably. I don't have 
any problems with asking the American people or elements of the 
American people or through some mechanism to collect the 
funding that is required.
    The government is running a deficit right now. We are not 
funding the full support of this war. I think we need to take a 
real look at the cost. You know, the cost isn't $400 billion. 
The cost is probably between $1.5 trillion and $2 trillion when 
you look at the total cost of what is going to take to recover 
from it. That cost is going to have to be recaptured. The 
government should responsibly start doing that.
    As far as the draft is concerned, I don't favor 
conscription, but I do believe that it is the obligation of the 
government to have the kind of dialogue about how we are going 
to man and support our armed forces if the volunteer force 
doesn't draw in the people we want, and if we sustain our 
commitment there. I think it is our obligation to have that 
dialogue before the armed forces fail.
    Right now, I am concerned. I know quality men and women are 
leaving. I know we are not getting the kinds of recruits we 
need. More importantly, we are allowing the United States Army 
to become unrepresentative of the United States of America. It 
is the obligation of the Congress and the Administration to 
raise those issues.
    So I am not advocating conscription, but I am advocating a 
dialogue about how we are going to maintain our troop strength 
other than simply raising the enlistment and reenlistment 
bonuses.
    Dr. Gingrey. General, I thank you.
    I have a little bit of time left, if Mr. Boot would like to 
respond to the question, and Dr. Khan. I have 30 seconds left.
    Mr. Boot. Your question is about the war tax and 
conscription?
    Dr. Gingrey. Absolutely.
    Mr. Boot. I don't think under the present circumstances I 
would favor either one, because I think that the economy is 
proving to be very robust in the last few years, and though the 
war is extremely costly, we are absorbing the cost from the 
financial perspective from the economic perspective, and we are 
continuing to grow very strongly.
    Now, the cost in human terms is harder to absorb, 
obviously--the loss of fine young men and women--but I don't 
think there is much support in this country for conscription. 
If you will recall, there was a vote a couple of years ago in 
the House, and there was something like only members supported 
the draft. So I don't think that is very likely.
    Dr. Gingrey. I believe that my memory serves me correctly, 
the two that supported it were the chairman of the Ways and 
Means Committee, Representative Charlie Rangel, and also one of 
the cardinals on defense appropriations, Mr. Jack Murtha.
    Mr. Boot. Well, so it is hard to pass legislation that only 
has two votes in Congress. So I don't think that is very 
likely. But I think we do need to look at expanding the 
recruiting base.
    One of the things that I would look at is to lift the 
prohibition that you currently have to have a green card in 
order to enlist, because there are a lot of people who don't 
have green cards, but who would like to become citizens. I 
think a lot of them would be happy to--in fact we are 
expediting citizenship procedures for a lot of people in 
uniform. I think we can do even more to expand our recruiting 
base.
    Dr. Snyder. Mr. Jones for five minutes.
    Mr. Jones. Thank you, Mr. Chairman.
    Mr. Boot, I do agree that we have a robust economy, but we 
are borrowing money from China, Japan, and the UAE like we have 
never borrowed before in the history of this country. We are 
borrowing this money to help pay for the war in Iraq. There is 
no question about it.
    This is my question, I guess. I guess you saw each one of 
you today in The Washington Post, CIA said instability seemed 
to be irreversible. This was said in November of 2006. CIA 
Director Hayden was speaking to the Iraq Study Group. I am not 
going to read everything, but just a couple more points, and I 
do have a question.
    ``The government is unstable to govern,'' Hayden concluded. 
``We have spent a lot of energy and treasure creating a 
government that is balanced, and it cannot function.'' He 
further stated, ``A government that can govern, sustain and 
defend itself is not achievable.'' He was talking about Iraq.
    I am not taking a view, but the point is, and you know the 
statement that we were given that raises the scenario of before 
we went into Iraq. And I quote General Gregory Newbold, who I 
have great respect for--a three-star Marine general that gave 
up the fourth star: ``I was a witness and therefore a party to 
the actions that led us to the invasion of Iraq an unnecessary 
war. Inside the military family, I made no secret of my view 
that the zealots' rationale for war made no sense--the neocons 
that sold us this information and created the justification 
that was never justified.''
    My point and my question, and I will start with you, and we 
have a little bit of time and everybody could speak to this. 
You say that we have to stay the course. That sounds like the 
President of the United States. We have to stay the course. 
Well, with this nation going bankrupt, both treasure and men 
and women, and you are opposed to a draft, how in the world and 
what do you see as victory in Iraq?
    Mr. Boot. First, Congressman, you are citing a CIA 
prediction of what would happen in Iraq. I think as we have 
seen in recent years, the CIA is hardly an infallible oracle 
about what will happen in Iraq.
    Mr. Jones. So is this Administration's policy.
    Mr. Boot. I agree. I have been critical of the 
Administration, too, but let me cite you another intelligence 
estimate which was leaked almost a year ago from the chief 
Marine intelligence officer in Anbar province, where he wrote 
that Anbar province was lost; there was nothing we could do to 
retrieve the situation in Anbar province.
    Well, guess what? In the last year there has been a 
turnaround which nobody expected. The unpredictable happens.
    Mr. Jones. Okay. Please. Reclaiming my time. Go back, 
because I want the other two gentlemen to speak, and give me 
what you see and how you would explain to the American people 
what the definition of ``victory'' is. How would you explain 
what is ``victory'' in Iraq?
    Mr. Boot. I think victory is a sustainable representative 
government in Baghdad that is able to police its own soil and 
to prevent international terrorist from using it as a staging 
ground. I think that is essentially what we are looking for. 
You are right about the cost of the war. It is heavy in both 
blood and treasure.
    In terms of the treasure, I think that is not to sustain, 
given how robust our economy is and how strongly it is growing. 
The question of the sacrifice of our young men and women is 
harder to sustain, but the question we have to ask is: As 
opposed to what? If we could end the war by simply pulling out 
and everything would be great afterwards, I would say pull out. 
But my concern is that we will lose far more people in the 
future if we pull out today.
    Mr. Jones. Reclaiming my time. First of all, the robust 
economy is that to the Chinese we have sent thanks to two 
Administrations more manufacturing jobs to China than we ever 
have. We have had a classified briefing on Red China and how 
much money they are putting into their navy and air force, and 
most of that money is coming from the trade deficit with China 
which is over $200 billion.
    Real quickly, General, what would you say to the American 
people?
    Mr. Boot. If I could just for 30 seconds on the trade 
deficit?
    Mr. Jones. I am going to lose my time. Let the general 
speak and then the doctor.
    I mean, how would you explain victory so that we would 
recognize it?
    General Clark. Well, I don't think it is possible to at 
this point claim there is going to be a victory in Iraq. I 
think you have to ask, what is an acceptable condition that we 
could live with. It us a government that doesn't harbor 
terrorists, doesn't commit acts of aggression against other 
states in the region, and that will participate in the normal 
diplomatic intercourse and trade and so forth in the region. 
That is all.
    I don't think that you are going to get a long-term 
sustainable representative government. I think it is unlikely. 
If we got it, it would be great. I just think it is unlikely 
and I don't think it is a condition for America's achievement 
of what it needs to be able to pull back.
    Dr. Snyder. Ms. Shea-Porter, for five minutes.
    Ms. Shea-Porter. Thank you.
    After just six months being in Congress, I am amazed at the 
contradictions I have heard in what has been said at all the 
hearings I have attended.
    Mr. Boot, you just talked about giving a green card to 
people to fight for us. Now, either we have the will of the 
American people which is essential for what you call 
``victory'' or we don't. And recruiting people almost sends 
kind of a mercenary, that somebody else will fight our wars for 
us. First, we want to borrow the money to have the war, and 
then we want to borrow the people from other nations to fight 
the war.
    So I guess my question to you is, earlier, you talked about 
defeat. So exactly what is your idea? You use the word 
``defeat,'' so how could you say that you would pull out if you 
thought that would work, because wouldn't that be defeat?
    And what about that debt that we have to other nations? You 
talked about a robust economy, but you can ask anybody anywhere 
around the country about--and by the way, I hear from my own 
constituents all the time that we don't have money for the 
hospitals; we don't have money for the infrastructure; we don't 
have money for social programs, which is a direct result.
    So what exactly are you proposing as your idea? And could 
you also tell me where we would get the troops if we didn't 
take them from other nations?
    Mr. Boot. What I said was if we could pull out without 
suffering a catastrophic defeat, I would favor a pull out, but 
I am afraid that the pull out under those circumstances would 
result in a defeat.
    In terms of where we can get the troops, we Army has had 
some strains on recruiting, but it has struggled to meet its 
numbers for a few months, but overall year by year is has met 
its numbers, where it has seen very strong reenlistment rates. 
On July 4 in Baghdad, General Petraeus led one of the largest 
reenlistment ceremonies we have ever had. The troops have been 
extraordinary and dedicated and committed, and have stayed in 
this fight.
    Now, I mentioned the possibility of lifting the green card 
requirement, which is something we have done in the past. You 
can call people who serve in expectation of citizenship or for 
some other reason. Without being citizens, you can call them 
mercenaries if you want, but that would have to extend to 
people like Lafayette and General Kosciuszko who helped us to 
win independence or the many fresh immigrants off the boat from 
Ireland and Germany and elsewhere who helped the Union to win 
the Civil War. We have used troops born abroad many times in 
the past. They are fighting today. We have many non-citizens in 
the military today who are serving very valiantly.
    Ms. Shea-Porter. Reclaiming my time. I think they were 
fighting in our country on our soil for our effort.
    Mr. Boot. They have also fought for us abroad in other 
places as well.
    Ms. Shea-Porter. Excuse me--our war. And here, I am just so 
confused by this. I mean, I have to tell you that you are not 
the only one who shifts the wording around, because in March 
when I was in Baghdad we asked General Petraeus how much time 
did you need. And he said at that time, early summer, and he 
would know clearly whether it was working or not, the surge. 
And he used the word ``surge,'' and I have trouble remembering 
which surge you are talking about, because we have had quite a 
few surges.
    Mr. Boot. The one that started on February 15.
    Ms. Shea-Porter. Okay, because you named another one that 
you dated back to June. But the issue is that----
    Mr. Boot. The surge of operations--Operation Phantom 
Thunder started on June 15 using the surge force----
    Ms. Shea-Porter. This is the problem I think that we are 
having, that we are talking past one another. But it is really 
way past time to stop saying General Petraeus deserves more 
time. It is interchangeable, depending--Secretary Gates 
deserves more time.
    Deserves more time for what? What we are asking right now 
is for a responsible strategy to not necessarily win in the 
terms that you use, but certainly stabilize Iraq. The very 
first hearing that I attended we asked what the goal was--this 
was back in January--and it was to stabilize Iraq. Nobody used 
the word ``military victory'' except the President. It is 
stabilize Iraq.
    So how can we have a dialogue here--what can we really do 
that would get at that sort of----
    Mr. Boot. You won't find anything about the surge strategy. 
The President has launched a new strategy. I was very critical 
of his previous strategy a year ago. We have started a new 
strategy. The surge of forces began on February 15. The last 
troops in the surge arrived in mid-June. Operations using those 
troops began on June 15. That is why I said it is too soon to 
judge the results of the surge. However, there are a lot of 
early indications have been positive, as I mentioned before.
    Ms. Shea-Porter. Reclaiming my time. We are in year five of 
this war--year five.
    I yield back.
    Dr. Snyder. Ms. Davis, are you just dying to ask a 
question?
    Ms. Davis of California. I really was, just in terms of 
numbers, because one of the I think concerns that people have 
was that the surge was likely too little and too late. Had 
there been the ability of more troops, longer deployments, God 
forbid--I mean, would we be in a different position even today 
in your estimation than we are had we actually truly surged 
with a lot more troops?
    General Clark. I am not sure if the occupation was ever 
going to succeed once we used military force, disbanded the 
army, and let the anti-Baathists take charge. At that point, it 
was just a matter of time. What we had to have done is thought 
through the occupation, pre-identified that people who were 
going to be important movers and shakers on the ground, the 
institutions that had to be retained, the city leaders that had 
to be identified--and dealt with those people.
    It wasn't just a matter of troop strength, but it was 
partly a matter of troop strength. It was more an attitude of 
just total misunderstanding of the situation. To be instructive 
on this, you should look at how the Soviet Union occupied 
eastern Poland in the Molotov-Ribbentrop Pact of 1939. It is an 
amazing example of how one country can take. They knew every 
village. They knew every enemy. They had special parties 
designated. They had prepared for this. We did not prepare.
    So the idea of maybe it would have been different if we had 
three or four--maybe. But what we really needed was to 
understand the situation.
    Dr. Snyder. The timing is good.
    Gentlemen, we appreciate you being here. That was a good 
discussion. I want you to feel free, if things come to mind and 
you would like to have an addendum written statement, you 
submit that and it will be made a full part of the record and 
be distributed to members of the committee.
    Members may also have questions they would like you to 
respond to for the record. We hope that we can get those in a 
timely fashion.
    With that, the committee is adjourned.
    [Whereupon, at 5:45 p.m., the subcommittee was adjourned.]
?

      
=======================================================================




                            A P P E N D I X

                             July 12, 2007

=======================================================================

      
?

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             July 12, 2007

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T8756.001
    
    [GRAPHIC] [TIFF OMITTED] T8756.002
    
    [GRAPHIC] [TIFF OMITTED] T8756.003
    
    [GRAPHIC] [TIFF OMITTED] T8756.004
    
    [GRAPHIC] [TIFF OMITTED] T8756.005
    
    [GRAPHIC] [TIFF OMITTED] T8756.006
    
    [GRAPHIC] [TIFF OMITTED] T8756.007
    
    [GRAPHIC] [TIFF OMITTED] T8756.008
    
    [GRAPHIC] [TIFF OMITTED] T8756.009
    
    [GRAPHIC] [TIFF OMITTED] T8756.010
    
    [GRAPHIC] [TIFF OMITTED] T8756.011
    
    [GRAPHIC] [TIFF OMITTED] T8756.012
    
    [GRAPHIC] [TIFF OMITTED] T8756.013
    
    [GRAPHIC] [TIFF OMITTED] T8756.014
    
    [GRAPHIC] [TIFF OMITTED] T8756.015
    
    [GRAPHIC] [TIFF OMITTED] T8756.016
    
    [GRAPHIC] [TIFF OMITTED] T8756.017
    
    [GRAPHIC] [TIFF OMITTED] T8756.018
    
    [GRAPHIC] [TIFF OMITTED] T8756.019
    
    [GRAPHIC] [TIFF OMITTED] T8756.020
    
    [GRAPHIC] [TIFF OMITTED] T8756.021
    
    [GRAPHIC] [TIFF OMITTED] T8756.022
    
    [GRAPHIC] [TIFF OMITTED] T8756.023
    
    [GRAPHIC] [TIFF OMITTED] T8756.024
    
    [GRAPHIC] [TIFF OMITTED] T8756.025
    
    [GRAPHIC] [TIFF OMITTED] T8756.026
    
                                  <all>

</pre></body></html>
